<html>
<title> - TRENDS IN ILLICIT MOVEMENT OF NUCLEAR MATERIALS</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
            TRENDS IN ILLICIT MOVEMENT OF NUCLEAR MATERIALS

=======================================================================

                                HEARING

                               before the

      SUBCOMMITTEE ON PREVENTION OF NUCLEAR AND BIOLOGICAL ATTACK

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                           September 22, 2005

                               __________

                           Serial No. 109-41

                               __________

       Printed for the use of the Committee on Homeland Security
                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
31-781                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�0900012007


                     COMMITTEE ON HOMELAND SECURITY

                   Peter T. King, New York, Chairman

Don Young, Alaska                    Bennie G. Thompson, Mississippi
Lamar S. Smith, Texas                Loretta Sanchez, California
Curt Weldon, Pennsylvania            Edward J. Markey, Massachusetts
Christopher Shays, Connecticut       Norman D. Dicks, Washington
John Linder, Georgia                 Jane Harman, California
Mark E. Souder, Indiana              Peter A. DeFazio, Oregon
Tom Davis, Virginia                  Nita M. Lowey, New York
Daniel E. Lungren, California        Eleanor Holmes Norton, District of 
Jim Gibbons, Nevada                  Columbia
Rob Simmons, Connecticut             Zoe Lofgren, California
Mike Rogers, Alabama                 Sheila Jackson-Lee, Texas
Stevan Pearce, New Mexico            Bill Pascrell, Jr., New Jersey
Katherine Harris, Florida            Donna M. Christensen , U.S. Virgin 
Bobby Jindal, Louisiana              Islands
Dave G. Reichert, Washington         Bob Etheridge, North Carolina
Michael McCaul, Texas                James R. Langevin, Rhode Island
Charlie Dent, Pennsylvania           Kendrick B. Meek, Florida
Ginny Brown-Waite, Florida

                                 ______

      SUBCOMMITTEE ON PREVENTION OF NUCLEAR AND BIOLOGICAL ATTACK

                     John Linder, Georgia, Chairman

Don Young, Alaska                    James R. Langevin, Rhode Island
Christopher Shays, Connecticut       EdwarD J. Markey, Massachusetts
Daniel E. Lungren, California        Norman D. Dicks, Washington
Jim Gibbons, Nevada                  Jane Harman, California
Rob Simmons, Connecticut             Eleanor Holmes Norton, District of 
Bobby Jindal, Louisiana              Columbia
Michael McCaul, Texas                Donna M. Christensen, U.S. Virgin 
Peter T. King, New York (Ex          Islands
Officio)                             Bennie G. Thompson, Mississippi 
                                     (Ex Officio)

                                  (II)


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable John Linder, a Representative in Congress From the 
  State of Georgia, and Chairman, Subcommittee on Prevention of 
  Nuclear and Biological Attack
  Oral Statement.................................................     1
  Prepared Statement.............................................     2
The Honorable James R. Langevin, a Representative in Congress 
  From the State of Rhode Island, and Ranking Member, 
  Subcommittee on Prevention of Nuclear and Biological Attack....     3
The Honorable Norman D. Dicks, a Representative in Congress From 
  the State of Washington........................................    25
The Honorable Daniel E. Lungren, a Representative in Congress 
  From the State of California...................................    26
The Honorable Michael McCaul, a Representative in Congress From 
  the State of Texas.............................................    23
The Honorable Eleanor Holmes Norton, a Delegate in Congress From 
  the District of Columbia.......................................    28
The Honorable Christopher Shays, a Representative in Congress 
  From the State of Connecticut..................................    30

                               WITNESSES

Dr. Raymond J. Juzaitis, Associate Director, Nonproliferation, 
  Arms Control, and International Security, Lawrence Livermore 
  National Laboratory, University of California:
  Oral Statement.................................................     9
  Prepared Statement.............................................    11
Dr. Rensselaer Lee, President, Global advisory Services:
  Oral Statement.................................................     4
  Prepared Statement.............................................     5
Mr. Glenn E. Schweitzer, Director of Central Europe and Eurasia, 
  The National Academy of science:
  Oral Statement.................................................    14
  Prepared Statement.............................................    15


                       TRENDS IN ILLICIT MOVEMENT
                          OF NUCLEAR MATERIALS

                              ----------                              


                      Thursday, September 22, 2005

                  House of Representatives,
                    Committee on Homeland Security,
                              Subcommittee on Prevention of
                             Nuclear and Biological Attack,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 2:05 p.m., in 
Room 210, Cannon House Office Building, Hon. John Linder 
[chairman of the subcommittee] presiding.
    Present: Representatives Linder, Shays, Lungren, McCaul, 
Langevin, Dicks and Norton.
    Mr. Linder. The Committee on Homeland Security, 
Subcommittee on Prevention of Nuclear and Biological Attack 
will come to order.
    I would like to welcome and thank our distinguished panel 
of witnesses for appearing before the subcommittee today.
    It has often been said that defending against nuclear 
terrorism will require a multilayered approach. Given the 
complexity of the problem and the extraordinary consequences of 
a successful nuclear event, we must look to any and all 
opportunities for preventing such attack. Should a terrorist 
organization acquire the requisite nuclear material, we would 
then be faced with the difficult task of interdiction. Here, as 
in so many areas, timely intelligence is critical. We cannot be 
everywhere all the time; but if we have good intelligence, we 
may be in the right place at the right time.
    The Department of Homeland Security is developing, in 
collaboration with other agencies, a global system for nuclear 
detection. The challenge is daunting, and the relevant 
geographical area is enormous. We have also heard in previous 
subcommittee hearings of the inherent limitations of detection 
technology. We must therefore focus our resources where they 
can be most effective.
    When it comes to nuclear smuggling, our interdiction 
efforts should take note of trends in the trafficking of 
nuclear materials. We should also be aware of existing 
contraband smuggling routes and techniques of evasion currently 
used by criminal organizations. These methods present a well-
worn path for clandestine distribution of materials, including 
human beings, around the globe.
    Unfortunately, nuclear smuggling is not a purely 
hypothetical threat. Incidents of nuclear smuggling continue to 
appear in the news. Just last month Turkish officials in 
Istanbul arrested two men smuggling a small amount of uranium, 
enriched to 17 percent. Press reports indicate that the uranium 
likely originated from a Russian nuclear facility. Fortunately 
this case, like most nuclear smuggling incidents, involved 
materials not suitable for a nuclear weapon. But just like the 
illicit drug trade, what we detect may only represent a 
fraction of the material involved.
    When it comes to the intermingling of criminal and 
terrorist organizations, we have clear examples closer to our 
shores. In South America, the terrorist organization known as 
the Revolutionary Army Forces of Colombia has been trafficking 
in illegal drugs for many years. The U.S. Drug Enforcement 
Agency has also reported that both Hamas and Hezbollah have 
established drug and other criminal operations in the triborder 
area of Argentina, Paraguay, and Brazil. Bureaucracy may spend 
its time and money reinventing the wheel; terrorists will 
exploit existing networks and assets.
    As DHS begins to invest in detection technology, it will be 
useful to discuss the links between terrorist and criminal 
networks, existing smuggling routes, and ways for us to monitor 
and interdict smuggling of nuclear material.
    Fixing levees and draining a city has proved difficult and 
costly enough. I for one cannot even begin to comprehend both 
the human toll and clean up cost resulting from a nuclear 
explosion in a U.S. city.
    I look forward to the testimony of our expert panel, and I 
recognize the Ranking Member.

                 Prepared Statement of Hon. John Linder

    I would like to welcome and thank our distinguished panel of 
witnesses for appearing before the Subcommittee today.
    It has often been said that defending against nuclear terrorism 
will require a multi-layered approach. Given the complexity of the 
problem and the extraordinary consequences of a successful nuclear 
event, we must look to any and all opportunities for preventing such an 
attack.
    Should a terrorist organization acquire the requisite nuclear 
material, we would then be faced with the difficult task of 
interdiction. Here, as in so many areas, timely intelligence is 
critical. We cannot be everywhere all the time, but if we have good 
intelligence we may be in the right place at the right time.
    The Department of Homeland Security is developing, in collaboration 
with other agencies, a global system for nuclear detection. The 
challenge is daunting, and the relevant geographical area is enormous. 
We have also heard in previous subcommittee hearings of the inherent 
limitations of detection technology. We must therefore focus our 
resources where they can be most effective.
    When it comes to nuclear smuggling, our interdiction efforts should 
take note of trends in the trafficking of nuclear materials. We should 
also be aware of existing contraband smuggling routes and techniques of 
evasion currently used by criminal organizations. These methods present 
a well worn path for clandestine distribution of materials, including 
human beings, around the globe.
    Unfortunately nuclear smuggling is not a purely hypothetical 
threat. Incidents of nuclear smuggling continue to appear in the news. 
Just last month, Turkish officials in Istanbul arrested two men 
smuggling a small amount of uranium enriched to 17%. Press reports 
indicate that the uranium likely originated from a Russian nuclear 
facility. Fortunately this case, like most nuclear smuggling incidents, 
involves materials not suitable for a nuclear weapon. But just like the 
illicit drug trade, what we detect may only represent a fraction of the 
material involved.
    When it comes to the intermingling of criminal and terrorist 
organizations, we have clear examples closer to our shores. In South 
America the terrorist organization known as the Revolutionary Armed 
Forces of Colombia has been trafficking in illegal drugs for many 
years. The U.S. Drug Enforcement Agency has also reported that both 
Hamas and Hezbollah have established drug and other criminal operations 
in the tri-border area of Argentina, Paraguay, and Brazil.
    Bureaucracy may expend its time and money reinventing the wheel; 
terrorists will exploit existing networks and assets. As DHS begins to 
invest in detection technology, it will be useful to discuss the links 
between terrorist and criminal networks, existing smuggling routes and 
ways for us to monitor and interdict smuggling of nuclear material.
    Fixing levees and draining a city has proved difficult and costly 
enough. I, for one, cannot even begin to comprehend both the human toll 
and clean up cost resulting from a nuclear explosion in a U.S. city.
    I look forward to the testimony of our expert panel.

    Mr. Langevin. Thank you, Mr. Chairman. And I would like to 
welcome our witnesses here today, and I certainly look forward 
to hearing their testimony.
    Our work in this subcommittee has shown that the nuclear 
terrorist threat is very real, requiring the full attention of 
our government. We have learned about the relative ease with 
which a terrorist can build a crude nuclear device, and 
therefore we must do all we can to prevent them from building 
or obtaining other nuclear material, including taking steps to 
reduce the illicit smuggling of nuclear material.
    Security of fissile materials in Russia still concerns me, 
especially after the National Intelligence Council reported in 
December 2004 that undetected smuggling of nuclear materials 
has occurred at Russian weapons facilities. Reports 
specifically mentioned that Russian authorities twice thwarted 
terrorist efforts to survey nuclear weapons storage sites. The 
intelligence council report leads me to believe that while 
progress has been made in securing fissile material, more must 
be done to prevent this material from ending up in the hands of 
terrorists. Revelations about the A.Q. Khan proliferation 
network show that nation-states could provide terrorists with 
nuclear material, and therefore we must adapt our 
nonproliferation programs to deal with this threat.
    I would like to hear from our witnesses today about where 
they feel the smuggling trends are going and where our 
government should focus its attention to further deter 
smuggling efforts.
    Criminal smuggling has presented a challenge for our 
government for decades, as smugglers move illegal drugs and 
migrants into the country. I would like to know if there are 
steps that can be taken using the lessons learned from drug and 
migrant smuggling.
    I would also be interested in hearing your opinions on what 
our government needs to do to ensure that our nonproliferation 
programs are capable of mitigating the nuclear terrorist 
threat.
    Finally, I would like to hear from our witnesses about how 
our government could better coordinate its proliferation and 
detection programs. Specifically, do you think the Domestic 
Nuclear Detection Office is capable of leading the government's 
efforts to develop a global architecture?
    I look forward to our witnesses addressing these and other 
issues. And, Mr. Chairman, I would like to thank you for 
holding today's hearing.
    Mr. Linder. I thank the gentleman. Members are reminded 
that they may submit written reports for the record.
    We are pleased to have a distinguished panel of witnesses 
before us today on this important topic. Let me remind the 
witnesses that their entire written statement will appear in 
the record. We ask, due to the number of witnesses on our 
panel, that you strive to limit your testimony to 5 minutes.
    Dr. Juzaitis is an associate laboratory director at the 
Lawrence Livermore National Lab.
    Dr. Lee is the president of Global Advisory Services and a 
senior fellow with the Foreign Policy Research Institute.
    Mr. Schweitzer is director for Central Europe and Eurasia 
at the National Academy of Sciences.
    Dr. Lee.

                  STATEMENT OF RENSSELAER LEE

    Mr. Lee. Thank you very much, Mr. Chairman. I am going to 
start with the observation that the nuclear smuggling danger is 
probably quite a bit more serious than it appears. Admittedly, 
the visible face of the nuclear black market doesn't seem very 
compelling: Lots of radioactive junk floating around, a 
multitude of sellers, few bona fide buyers, and more a minor 
international nuisance than a first order of strategic threat. 
But this picture may be misleading.
    As with other illegal businesses, drugs, for example, what 
is seized is only a small fraction of what may be circulated 
through smuggling channels. Important incidents go unreported 
or undetected--or actually go unreported or underreported, 
especially in former Soviet bloc countries. And it goes without 
saying that sophisticated thieves and smugglers are far less 
likely to get caught than the amateur players and scam artists 
who dominate the known smuggling incidents.
    Furthermore, anecdotal evidence suggests that a handful of 
nation-states and subnational actors are in the market for 
strategic nuclear wares. It is certainly conceivable that 
would-be sellers and prospective buyers can connect with each 
other in ways that are not readily apparent to Western law 
enforcement and intelligence agencies.
    In my written testimony I have discussed some of the 
nuclear leakage threats that I think are most worrisome, such 
as the corruption inside former Soviet nuclear facilities, 
state-sponsored proliferation a la A.Q. Khan, and mounting 
evidence that cross-border smuggling operations are becoming 
more sophisticated.
    I would like to focus here on demand-side challenges just 
for the next couple of minutes, especially strategies that are 
likely to be used by adversaries to pursue their WMD 
objectives. Al-Qa'ida's activities, of course, are of 
particular interest since that organization has made multiple 
attempts to acquire both nuclear materials and tactical nuclear 
weapons since the early 1990s. It is believed that al-Qa'ida, 
lacking the requisite official contacts inside nuclear supplier 
countries, would try to recruit criminal groups to obtain the 
items that it wants and smuggle them to a target country like 
the United States. And al-Qa'ida's natural allies for this 
purpose probably would not be the major transnational 
syndicates that we are all familiar with like the Colombian 
cartels, the Sicilian Cosa Nostra, and the larger Slavic 
formations like Uralmash and Solntsevo in Russia. These groups 
boast lucrative and well-protected illegal businesses, 
extensive investments in the legal economy, and de facto 
political representation in their societies, and they probably 
wouldn't want to risk these assets by getting involved in a 
high-profile and risky activity like smuggling dangerous 
nuclear materials.
    Terrorists probably would find better luck picking 
ideologically sympathetic groups with less of a stake in the 
surrounding social order. Reports of al-Qa'ida's negotiations 
with the Chechen mafiya in Russia to buy tactical nukes, though 
I think these are probably exaggerated, they seem to fit this 
pattern. And the Chechens certainly have the international 
connections to mount a successful smuggling operation.
    I have argued that the measures that we are introducing 
against nuclear smuggling abroad might not be effective against 
high-end threats from collusion, for example, from collusion 
among well-placed nuclear insiders, increasingly 
professionalized smuggling operations and sophisticated 
procurement schemes of well-heeled adversaries. State-sponsored 
proliferation is a particularly difficult challenge, of course. 
We provide nuclear security assistance to states on the 
assumption that they want to protect their own nuclear assets. 
Well, if they don't, our options are obviously rather limited.
    Certainly there aren't too many magic bullets that can 
prevent some of these worst-case scenarios that I talked about 
and mentioned in my written testimony from becoming a reality, 
but I have suggested that we should try to complement our 
essentially right now reactive and stationary lines of defense 
approach to nuclear security with proactive, intelligence-based 
policies that could help contain corruption and at the same 
time provide advanced warning of illegal nuclear deals. I 
mentioned these examples: Human reliability systems that can 
detect corrupt or disloyal conduct, whether employees of 
nuclear enterprises or people who are responsible for 
interdicting nuclear smuggling. I also mentioned law 
enforcement and intelligence operations that could shut down 
demand-driven smuggling networks and expose high-level 
corruption at the state level.
    But we must also understand, and in conclusion, that our 
nuclear security policy is inextricably tied to the imperatives 
of the global fight against terrorism. We have got to be 
vigilant against catastrophic events, not just those that are 
gestating abroad, but also those that are aimed at the home 
front or even already en route to U.S. shores.
    Thank you very much, Mr. Chairman.
    Mr. Linder. Thank you, Dr. Lee.
    [The statement of Dr. Lee follows:]

                  Prepared Statement of Rensselaer Lee

                            A SHADOW MARKET?

    The threat of catastrophic terrorism in the post-9/11 world raises 
new concerns about a recurrent and pervasive phenomenon: the illegal 
trade in nuclear and radiological materials. The true dimensions of the 
nuclear smuggling business and its implications for international 
stability and relationships are somewhat ambiguous. Little nuclear 
material of significance and no nuclear warheads appear to circulate in 
the black market; buyers are elusive; and arrest and seizure statistics 
provide little evidence of participation in the market by rogue states, 
terrorists , and major transnational crime formations, Nevertheless, 
the observed reality of the traffic may be a misleading guide to the 
magnitude and patterns of the traffic as a whole. It is what we can't 
see happening that gives us greatest cause for worry.
    As with other illegal businesses, drugs for example, what is seized 
is only a small fraction of what circulates in international smuggling 
channels. Some significant incidents go unreported, particularly in 
former Soviet states. Also, it stands to reason that sophisticated and 
well-connected smugglers are far less likely to get caught than the 
amateur criminals and scam artists who dominate the known incidents. 
And on the demand side, we can be fairly certain that a handful of 
nation-states and sub-national actors are ``in the market'' for nuclear 
materials. Over the years, North Korea, Iraq, Iran and Libya have tried 
to purchase stolen fissile material for a bomb, and al-Qa'ida has 
sought such materials in various venues--Africa, Western Europe and the 
former Soviet Union--since the early 1990s. Conceivably, purveyors of 
strategic nuclear wares may converge with end-users in ways that are 
simply not visible to Western law enforcement and intelligence 
agencies.

                           INSIDIOUS THREATS

    Insider theft. Typical smuggling incidents have involved 
opportunistic thefts of small amounts of material by solitary nuclear 
workers, who then search for a buyer, often with the help of local 
relatives or petty criminals, who in turn are soon apprehended by 
police.. Yet here are important exceptions. For example, in 1998 
Russia's Federal Security Service reportedly foiled an attempt by 
``staff members'' of a Chelyabinsk nuclear facility (probably 
Chelyabinsk-70) to steal 18,5 kilograms of highly-enriched uranium, 
almost enough for a nuclear bomb Where the material was headed and who 
the customers were. Is unclear but an operation of this magnitude 
almost certainly would have required prior arrangement with a 
prospective buyer. Also unclear is whether the theft attempt was an 
isolated case or a single failure in a string of successful diversions.
    Other incidents have involved deceptive practices by senior 
facility managers, specifically illegal exports under cover of the 
legal trade in nuclear and radioactive materials. In a well- known 
case, at the Mayak Production Association in Chelyabinsk, the manager 
of Mayak's isotope separation plant was convicted of exporting a non-
nuclear radioisotope (iridium-192) using false customs documentation, 
Yet managers could just as well create appropriate paperwork to conceal 
a more serious diversion--describing a shipment of HEU as a relatively 
innocuous substance-such as natural uranium or cesium, for example.
    State-sponsored proliferation. A further danger--one also difficult 
to detect--is that of ``state-sponsored'' proliferation, in which high 
government officials covertly transfer strategic nuclear goods to 
client states or groups, either for personal gain or as a matter of 
policy The black market network run by A.Q. Khan is latter-day model 
for this. Khan is known to have sold centrifuge technology and nuclear 
bomb designs to states such as Iran and Libya; yet, according to an 
Iranian exile group, it also provided an undisclosed quantity of 
highly-enriched uranium to the Iranian government in 2001. Almost as 
egregiously, Pakistan's Atomic Energy Commission in July 2000 took out 
a full-page ad in a Pakistani newspaper offering for export enriched 
uranium, plutonium and other nuclear materials. (The ad was withdrawn 
under U.S. pressure) Similarly, some U.S. officials believe that the 
Russian-Iranian nuclear cooperation allows Iran to maintain wide 
ranging contacts with Russian nuclear entities and to exploit these 
relationships to advance its nuclear weapons objectives.
    Demand-side challenges: nation states, terrorists and criminals. 
Anecdotal evidence suggests that nation states and terrorists are in 
the market for strategic nuclear goods, but face significantly 
different constraints in procuring them. Nation states have the 
advantage of being able to deal with government officials or facility 
managers directly, and might successfully exploit quasi-official 
channels and networks (leveraging formal cooperation agreements) to get 
what they want. Terrorists lack such opportunities, and must somehow 
link up with a social subset of people who willing to commit illegal or 
disloyal acts. The obvious candidates here are criminal organizations, 
specifically ones having connections inside nuclear enterprises and 
cross-border smuggling experience.
    Who would be al-Qa'ida's natural allies within the criminal world? 
Probably not major transnational formations such as the Slavic 
Solntsevo and Uralmash gangs, the Sicilian Cosa Nostra and the 
Colombian cartels. These entities boast well-protected and lucrative 
illegal businesses as well as extensive investments in the legal 
economy and de-facto political representation; they probably would not 
want to jeopardize these assets (bringing down the wrath of the world's 
law enforcement agencies) by trafficking in strategic nuclear 
materials. Al-Qa'ida is more likely to seek as partners ideologically 
sympathetic criminals who have relatively less of a stake in the 
surrounding status quo, or even other terrorist groups. Petty criminals 
recruited by professional jihadists in the jails of Western Europe, 
North America and the Middle East might fall into this category, Also, 
reports that al-Qa'ida has sought assistance from the Chechen 
``mafiya'' and the Islamic Movement of Uzbekistan in pursuing its 
nuclear ambitions seem to dovetail with this hypothesis.
    Smuggling dynamics. Nuclear smuggling is widely perceived as an 
anemic, disorganized and supply-driven business. Yet evidence suggests 
increasing levels of sophistication in cross-border smuggling 
operations. For instance, sellers of nuclear material are increasingly 
likely to rely on paid couriers instead of trying to move are goods on 
their own.. Smugglers are believed to collect and share information on 
which Russian customs posts are equipped with radiation monitors and to 
route their shipments accordingly. Reportedly, smugglers have probed 
the sensitivity of monitors by sending across decoys with innocuous 
radioactive items such as radium--dial wristwatches. According to 
Western customs officials, smugglers are becoming more adept at 
shielding and concealing their wares, for example encasing material in 
lead containers installed in vehicles instead of carrying it on their 
persons. All this seems to suggest an organizational intelligence 
behind the traffic, as well as (ominously) expectations that customers 
exist or can be found for stolen and smuggled materials. Finally, 
several data bases indicate a significant shift in the locus of 
smuggling activity, from Europe to the Caucasus and Central Asia. 
Little weapons-usable material has been detected along these southern 
routes, but the trend is nonetheless worrisome because of the relative 
proximity of the traffic to regional trouble spots in the Middle East 
and South Asia. Possible links of nuclear smuggling to obviously arms 
and drugs trafficking networks in these regions need to be explored 
further.
    Worst case scenarios. Finally, the visible machinations of the 
nuclear black market provide little clue to what might already have 
happened. Recall the period of the 1990s, when the Russian nuclear 
complex was going through a period of deep malaise. Former Senator Sam 
Nunn, now the CEO of the Nuclear Threat Initiative, told a Senate 
Hearing in 1995 that the collapse of the USSR ``let loose a vast 
potential supermarket, for nuclear weapons, weapons-grade uranium and 
plutonium, and equally deadly chemical and biological weapons.'' Even 
allowing for some hyperbole, it would be a miracle indeed if no leakage 
of significance had taken place during this period. Indeed, nuclear 
smugglers captured in Europe in the 1990s indicated to authorities that 
significant quantities of HEU and plutonium had already escaped from 
government control and were available for sale. Where this material (if 
it exists) is today is anyone's guess: it could be buried somewhere in 
a birch forest, stashed in someone's attic, circling the globe looking 
for potential buyers, or hidden in a cave in remote eastern 
Afghanistan.

                               RESPONSES

    Limitations of policy. Nuclear security conditions apparently have 
improved in Russia and other new states since the 1990s. Russian 
officials claim that thefts have tapered off at nuclear facilities, and 
no weapons-usable material has surfaced in international smuggling 
channels in recent years, at least according to the official IAEA 
record. U.S materials protection and border monitoring programs and the 
turnaround in the Russian economy (reflected in much of the nuclear 
complex) may account for these trends. Nevertheless, prospective 
thieves and smugglers may have become smarter at circumventing or 
neutralizing the new systems being installed. Also, nuclear officials 
are more likely today than in the 1990s to have international 
connections or relationships enabling them to find connections to 
potential buyers. The legitimate international trade in radiological 
materials may provide a cover or channel for shipments of nuclear wares 
that could be diverted to dangerous uses. We cannot conclude, 
therefore, that the nuclear smuggling has diminished in importance, 
even though the visible signs seem encouraging.
    New U.S. safeguards are probably fairly effective against low-end 
threats from unsophisticated thieves and smugglers but this is not much 
cause for comfort. At the facility level today's main threat comes not 
from disgruntled solo players but from conspiracies of well-placed 
employees able to shut down alarm systems, bribe guards and alter 
relevant paperwork Russian experts tell us that at most Russian 
facilities collusion of just 4 or 5 insiders is required to carry out a 
successful diversion scheme. Similarly, the border and cargo monitoring 
systems being deployed in the former USSR and Europe may be ineffective 
in intercepting serious smugglers with the requisite technological 
expertise and knowledge of the terrain to move their wares covertly. 
Obviously, smart smugglers can opt to circumvent those customs posts 
that are equipped with radiation monitors. Alternatively, they may 
simply bribe border officials to turn off or ignore the sensors. A 
further limitation is that most of the equipment being installed at 
borders is not sensitive enough to detect well-shielded HEU, which is 
the material most likely to be used in a terrorist bomb.
    Additionally, our nuclear security programs absolutely are not 
designed to counter the state-sponsored proliferation scenarios 
discussed above. The systems focus on providing support to states 
presumably desirous of protecting their own nuclear assets. High-level 
diplomatic pressure and concerted political action are probably the 
only effective means of dealing with states, or their top officials, 
that refuse to play by the rules.
    Finally, new U.S. security measures have taken a long time to 
implement. For the Department of Energy's Materials Protection, Control 
and Accounting Program is not scheduled for completion until the year 
2008. But already 15 years have passed since the disintegration of the 
Soviet Union. The more time our programs require, the more problematic 
their strategic justification, which raises the question of whether we 
are simply locking the proverbial barn door after some of the horses 
have already escaped.
    Intelligence-based security. Our ``lines of defense''-approach to 
nuclear security policy have many weaknesses that can be exploited by 
clever adversaries intent on obtaining the ingredients for a nuclear 
weapon. This reality highlight the need for approaches that can lower 
the scope and degree of official corruption (difficult as this is), 
provide advance warning of illegal nuclear deals and stop consequential 
proliferation incidents before they happen. Various options present 
themselves: here:
    First, we might work with the Russians to construct a vulnerability 
profile of each nuclear energy enterprise. This could be based on such 
factors as economic conditions and wage scales, neighborhood presence 
of organized crime and potential terrorist groups, past histories of 
theft and theft attempts, accessibility to foreign visitors, and 
frequency of travel abroad by enterprise scientists. It should also be 
possible to gauge the susceptibility of the nuclear workforce to bribes 
or blackmail and employees' propensity to engage on corrupt or disloyal 
conduct.
    Illicit drug use, gambling habits major medical expenses, and 
conspicuous consumption unrelated to income are obvious warning signs. 
Post-employment screening techniques--polygraphs, psychological 
testing, and investigation of bank records--can be powerful predictive 
tools. They might also yield information on prior thefts, possibly 
leading to recovery of stolen material that perpetrators have not yet 
had the chance to export. Additionally, remote monitoring of nuclear 
storage sites and guard posts from vantage points inside and outside 
the facility in question could provide an additional layer of security 
against insider thefts. Some such steps are now being introduced within 
the Russian nuclear complex, but not on the scale contemplated here.
    A second recommendation is to focus more intelligence and law 
enforcement resources on the nuclear smuggling problem, especially on 
the demand side of the proliferation equation. Better intelligence can 
be seen as a dynamic component of nuclear defense, complementing the 
essentially reactive and stationary risk management systems that the 
United States is implementing in the former USSR and elsewhere. Not 
enough is known about adversaries' WMD procurement networks in nuclear 
supplier states: how they are organized, and financed, what front 
companies and other intermediaries are used, who their inside 
collaborators are and so on. Law enforcement sting operations in which 
operatives play the role of purveyors of strategic nuclear materials 
can be useful in fleshing out buyer and end-user networks and in 
shutting some of them down.
    Third, and related to this, collaboration with law enforcement and 
security agencies in countries of proliferation concern needs to be 
strengthened. Such organizations do much of the heavy lifting in 
containing nuclear theft and smuggling (see Chelyabinsk incident 
referred to earlier.) They also possess useful information on smuggling 
incidents, trends, players, networks and terrorist connections that 
would be of great value in configuring U.S nonproliferation programs in 
these countries.
    Finally, as should be obvious, the imperatives of U.S. nuclear 
security policy are ultimately inseparable from the imperatives of the 
global war on terrorism. Al Qa'ida's attempts to acquire nuclear 
materials and weapons have gone on for well over a decade. A large 
penumbra of uncertainty surrounds the extent of nuclear leakage from 
Russia and other supplier states. We do not know how far al-Qa'ida and 
its affiliates may have progressed toward building a bomb. Hence, as we 
build our defenses against proliferation in Russia, Europe and 
elsewhere, we must remain vigilant against threats that may be already 
out there, waiting to strike us when we least expect.

    Mr. Linder. Dr. Juzaitis.

                STATEMENT OF RAYMOND J. JUZAITIS

    Mr. Juzaitis. Good afternoon, Mr. Chairman, Congressman 
Langevin, and members of the committee. Thank you for the 
opportunity to appear before you today. My remarks today 
summarize my prepared statement that I ask be submitted for the 
record. ???
    Mr. Linder. Without objection, it will be.
    Mr. Juzaitis. Let me first say that nuclear terrorism is an 
enduring threat. The principles of nuclear weapons cannot be 
uninvented, and the hundreds of tons of weapons-usable nuclear 
material generated since the 1940s cannot be simply unproduced. 
More countries may join the nuclear club, and nonstate 
adversaries and extremist groups beyond al-Qa'ida may arise.
    Lawrence Livermore National Laboratory supports the nuclear 
counterterrorism mission on many fronts. In fact, the very 
organization that I lead, the Nonproliferation Arms Control and 
International Security Directorate at Lawrence Livermore, 
actually has main responsibility over the homeland security 
program as well. We understand that our programmatic responses 
to nonproliferation and homeland security are simply two sides 
of the same coin. A lot of the technologies are employed in 
meeting the objectives of both sets of programs.
    We are a key participant in the national-international 
programs supported by multiple agencies, including the 
Departments of Energy, Defense, Homeland Security, State, and 
Justice, that are addressing critical aspects of this complex 
threat. As part of a comprehensive nonproliferation and 
counterterrorism program, Livermore analysts have assessed 
incidents of illicit trafficking of alleged nuclear materials 
for more than 25 years. We maintain a comprehensive database of 
illicit trafficking incidents, assessments, and related 
information. These assessments provide important insights into 
this very key observable of the much larger nuclear terrorism 
and nuclear proliferation landscape. The Nuclear Assessment 
Program of which I think this committee is aware has been in 
existence for over 30 years, providing comprehensive technical, 
operational, and behavioral assessments of nuclear extortion 
threats. The same NAP personnel also assess nuclear black 
market transactions. As you are aware, NAP publishes a monthly 
newsletter which summarizes open-source reporting of illicit 
trafficking in nuclear materials.
    I would also like to state here at this point that through 
DOE's membership in the broader Intelligence Community, 
Lawrence Livermore has access to all-source information that 
appropriately informs many, if not most, of our technical 
activities. However, and I say that strongly here, that all 
testimony today will reference only--reference only the 
information available through open-source reporting.
    With regard to nuclear smuggling trends, and as described 
in unclassified reports, I am unaware of any illicit 
trafficking incident predating the dissolution of the Soviet 
Union that involved weapons-usable nuclear material; that is, 
plutonium or highly enriched uranium. However, since the early 
1990s, open-source information indicates that there have been 
roughly a dozen or so incidents involving significant amounts--
and significant here, I mean gram quantities or larger--of 
potentially weapons-usable nuclear material. Most of these 
incidents involved an individual or small group of people with 
legitimate access to the material, who opportunistically stole 
it and subsequently tried to find a buyer. Through their own 
error and/or law enforcement investigation of the theft, the 
individuals were apprehended, and the material was recovered.
    My laboratory and others have also catalogued hundreds of 
other illicit trafficking incidents, maybe 600 to 700 of these, 
in which non-weapons-usable materials such as radioactive 
sources or completely bogus materials such as lead or mercury 
were being trafficked by sellers who claimed to have possession 
of nuclear materials. In general, the traffickers asserted that 
the material was weapons-usable. In some cases they claimed 
that material was a functional nuclear explosive.
    In light of recent world events, even though nuclear 
smuggling currently appears to be dominated by scams and driven 
by opportunists, there is no room for complacency. Each 
smuggling incident must be carefully assessed on its own merits 
as an incident or a collection of incidents that might be the 
needle in the haystack that indicates that a genuine adversary 
is attempting to or has successfully acquired fissile material 
or even a weapon diverted from a country's nuclear stockpile. 
As such, every observed incident like this is an early 
indicator or could be an early indicator of a much greater 
threat.
    So in terms of recommendations, as important as it is to 
carefully track and assess the illicit trafficking of alleged 
nuclear materials, we must stay focused on the big picture, 
which is countering nuclear terrorism and nuclear 
proliferation. And what we would like to do is not just respond 
to these kinds of indicators, but build a comprehensive program 
that actually anticipates and prepares for the threat. This is 
an extremely complex problem for which there are no silver 
bullet solutions.
    As I noted earlier, many important programs are already 
under way to tackle critical elements of the problem. To name a 
few, the Cooperative Threat Reduction and Material Protection 
Control Accounting programs are helping to secure legacy Soviet 
nuclear weapons and weapons-usable materials. Second Line of 
Defense and Megaports programs and the new Proliferation 
Security Initiative are enhancing capabilities for detecting 
and interdicting nuclear materials in foreign border crossings, 
airports, seaports, and while in transit. The Nuclear 
Assessment Program and other efforts that are based on 
intelligence information can analyze specific incidents and 
track trends in nuclear threats and nuclear smuggling.
    So, all in all, there are multiple elements of a 
comprehensive program. The key effort for us is--or the key 
consideration is to link these separate programs together into 
a global architecture that is risk-based and actually informs 
our investment of resources so that all the varying elements 
can work together in order to reduce the continuing threat 
posed by proliferation and, possibly through nuclear smuggling, 
a terrorist event here in our country. I thank this committee 
for this opportunity.
    Mr. Linder. Thank you.
    [The statement of Mr. Juzaitis follows:]

             Prepared Statement of Dr. Raymond J. Juzaitis

    Mr. Chairman and members of the committee, thank you for the 
opportunity to appear before you today. I am the Associate Director for 
Nonproliferation, Arms Control, and International Security at the 
Lawrence Livermore National Laboratory (LLNL), which is administered by 
the University of California for the Department of Energy's National 
Nuclear Security Administration (NNSA).
    LLNL is a national security laboratory, established in 1952 to 
strengthen U.S. nuclear deterrence. As a principal participant in the 
Stockpile Stewardship Program, we help maintain confidence in the U.S. 
deterrent and its nuclear weapons stockpile in the absence of nuclear 
testing. We are also key contributors to critical national programs 
aimed at reducing the threat posed by the proliferation and potential 
terrorist acquisition of nuclear weapons and other weapons of mass 
destruction (WMD).
    At LLNL, we take an integrated, systems approach to the 
interrelated challenges of nonproliferation, counterproliferation, 
counterterrorism, and homeland security. We address all of the phases 
of the WMD threat (indications and warning, prevention and detection, 
response and recovery), the different types of threat (nuclear, 
radiological, chemical, biological, high explosive, cyber), and the 
various threat ``players'' (declared and de-facto weapons states, overt 
and covert proliferators, state-sponsored and transnational terrorist 
groups). We integrate science, technology, and analysis as we assess 
the capabilities, motivations, and intentions of proliferators and 
terrorists, devise technologies and systems to detect proliferation-
related activities and smuggled WMD materials, and collaborate with 
policy makers, the intelligence and defense communities, emergency 
planners, and first responders in developing capabilities for dealing 
with WMD proliferation or terrorism. We partner with industry, 
academia, and other research institutions to bring the full weight of 
the U.S. scientific community to bear on these most pressing national 
security challenges. In addition, we work closely with customers and 
end-users to ensure that the technological solutions we develop meet 
their real-world operational needs.
    Well before September 11, 2001, LLNL was addressing the threat of 
WMD terrorism. In 1996, LLNL was requested by the Director of Central 
Intelligence and the Deputy Secretary of Energy to organize a study of 
the threat posed by terrorist groups using WMD against the U.S. The so-
called Livermore Study Group (comprised of 20 experts from the 
Intelligence Community, DOD, DOE, FBI, State Department, Congress, U.S. 
industry, and academia) developed nuclear, chemical, and biological 
threat scenarios to identify key needs. They constructed an end-to-end 
framework for dealing with the WMD terrorism threat and made specific 
recommendations with respect to government structure, policy and legal 
changes, and science and technology to address the most critical gaps 
thus identified. One of the group's key recommendations was for a 
national program integrated across the entire federal system to 
comprehensively address the threat of WMD terrorism.

           ``DEFENSE IN DEPTH'' TO COUNTER NUCLEAR TERRORISM

    Nuclear terrorism is an enduring threat. The principles of nuclear 
weapons cannot be un-invented, and the hundreds of tons of weapons-
usable nuclear material generated since the 1940s cannot be un-
produced. The future stability of some of today's nuclear weapon states 
is not assured, more countries may join the ``nuclear club,'' and non-
state adversaries and extremist groups beyond al-Qa'ida may arise.
    Countering the terrorist nuclear threat requires a ``defense in 
depth''--namely, an integrated system of systems comprised of multiple 
programs and activities aimed at anticipating, detecting, and 
interdicting the threat as close to the source and as far from the 
target as possible. Many of the elements of such a defense in depth are 
already in place.
    The first lines of defense--securing nuclear weapons and weapons-
usable materials at their source--are embodied by the Cooperative 
Threat Reduction (DOD) and the Material Protection, Control, and 
Accounting (DOE) programs, which were established in the 1990s after 
the collapse of the Soviet Union. Additional layers of defense are 
provided by the Second Line of Defense (DOE) and Megaports (DOE) 
programs as well as the newly established Proliferation Security 
Initiative (DOD), which are enhancing capabilities for detecting and 
interdicting nuclear materials at foreign border crossings, airports, 
seaports, and while in transit.
    At the other end of the defense spectrum are long-standing national 
nuclear incident response programs. These include the Nuclear 
Assessment Program (originally DOE, transferred to DHS in 2003) for 
evaluating communicated nuclear threats and nuclear smuggling cases, 
the Radiological Assistance Program (DOE) for assisting local response 
entities, the Accident Response Group (DOE) for handling accidents 
involving U.S. nuclear weapons, the Joint Technical Operations Team 
(DOE) for locating and dealing with a terrorist nuclear device, Triage 
(DOE) and Reachback (DHS) programs for providing expert technical 
assistance to responders in the field, the Consequence Management 
program (DOE) for dealing with the immediate aftermath of a nuclear 
incident, and the Nuclear Attribution program (DOD, DOE, DOJ, DHS) for 
identifying the origins of terrorist nuclear material or a nuclear 
device,
    LLNL provides technical, analytical, and operational capabilities 
in support of all of these efforts.

                   DETECTION TECHNOLOGIES AND SYSTEMS

    Every layer of defense requires nuclear detection systems. 
Radiation detection portals for vehicles and personnel have long been 
in use at the nation's nuclear weapons complex. Similar instruments, 
together with access control and material accounting systems, have been 
installed at numerous sites in Russia and elsewhere to enhance the 
protection and control of Soviet-legacy weapons-usable nuclear 
material. Radiation detection instruments are also deployed at foreign 
border crossings and ports as well as at various entry points into this 
country. For example, U.S. Customs and Coast Guard inspectors are 
currently equipped with radiation pagers and low-resolution handheld 
isotope identifiers. The ORTEC Detective, based on LLNL's high-
resolution handheld RadScout isotope identifier, is being deployed and 
will greatly improve the rapidity and effectiveness of secondary 
screenings.
    Other detection systems have been developed and deployed for road-
based and waterway monitoring. For example, LLNL's Adaptable Radiation 
Area Monitor (which won a 2005 R&D 100 award and is being 
commercialized) has been demonstrated in challenging urban deployments, 
including DHS's Countermeasures Testbed. Other deployments at various 
military bases, under the DTRA's Unconventional Nuclear Warfare Defense 
program, have demonstrated the ability of innovative algorithms and 
software packages to integrate the detection signals from a network of 
sensors to provide tracking and interdiction capabilities. In addition 
to demonstrating the capabilities of the detection technologies, such 
real-world deployments are also providing invaluable experience in 
developing concepts of operations (conops) and coordinating response 
functions among the various involved agencies.
    Other research is under way to develop imaging detectors and new 
detector materials and to demonstrate next-generation detection 
concepts. Our overall aim is to develop a suite of detection 
technologies that (1) are inexpensive to manufacture, operate, and 
maintain, (2) are able to operate unattended for long periods of time 
in inhospitable environments, and (3) incorporate data processing, 
networking, and communications capabilities to provide network-wide, 
context-aware information. Such systems, when integrated with effective 
conops, should make it feasible to effectively monitor for nuclear 
threats (and discriminate non-threat detections) without impeding 
legitimate commerce or travel.

           NUCLEAR SMUGGLING: A KEY NUCLEAR THREAT OBSERVABLE

    For more than 25 years, Livermore analysts have assessed incidents 
of illicit trafficking of alleged nuclear and radiological materials. 
LLNL maintains comprehensive databases of illicit trafficking 
incidents, assessments, and related information, providing important 
insights into this key observable of the larger nuclear terrorism and 
nuclear proliferation landscape.
    With regard to nuclear smuggling trends, and as described in 
unclassified reports, I am unaware of any illicit trafficking incident 
pre-dating the dissolution of the Soviet Union that involved 
potentially weapons-usable nuclear material (e.g., plutonium or highly 
enriched uranium).
    Since 1993, open-source information indicates that there have been 
roughly a dozen incidents involving significant amounts (gram 
quantities or larger) of potentially weapons-usable nuclear material. 
Most of these incidents involved an individual or small group of 
people, with legitimate access to the material, who opportunistically 
stole it and subsequently tried to find a buyer. Through their own 
error and/or law enforcement investigation of the theft, the 
individuals were apprehended and the material recovered.
    LLNL and others have also catalogued hundreds of illicit 
trafficking incidents in which non-weapons-usable materials, such as 
radioactive sources, or completely bogus materials, such as lead or 
mercury, were being trafficked by sellers who claimed to have 
possession of nuclear material. The traffickers generally asserted that 
the material was weapons-usable; in some cases, the traffickers claimed 
that the material was a functional nuclear explosive or ``suitcase 
nuke.''
    In light of recent world events, even though nuclear smuggling 
currently appears to be dominated by scams and driven by opportunists, 
there is no room for complacency. Each smuggling incident must be 
carefully assessed on its own merits, as any incident (or collection of 
incidents) might be the ``needle in the haystack'' that indicates that 
a genuine adversary is attempting to or has successfully acquired 
fissile material or even a weapon diverted from a country's nuclear 
stockpile. Attention also needs to be paid to the ``big picture,'' via 
assessments of nuclear smuggling incidents in total and linkages to 
tactical threat incident analysis and strategic and operational 
analyses, in order to improve interdiction and the identification of 
threat trends.

            THE NEED FOR AN OVERARCHING GLOBAL ARCHITECTURE

    Given the multiple U.S. agencies that are responsible for the 
programs that comprise a defense in depth and the geographic span of 
the activities, the nation's efforts to counter nuclear terrorism must 
be formulated and implemented within an overarching, integrated, global 
architecture. Given the size and complexity of the endeavor, this 
architecture must be based on a systematic assessment of risks vs. 
investments.
    This architecture needs to coordinate three critical thrusts--
securing nuclear weapons and nuclear materials at their source 
(domestic and foreign), detecting and tracking the movement (licit and 
illicit) of nuclear materials, and enhancing U.S. detection, 
interdiction, and response capabilities.
    With a systems approach, we can develop a national investment 
strategy that allocates resources--technologies, people, effort--where 
they are most effective. A qualitative and quantitative risk-based 
framework will allow us to credibly answer such questions as: Which 
instruments and systems should be deployed and where? Should we deploy 
more equipment or more people? What new technologies or capabilities 
are needed to fill which current or anticipated gaps? How can we most 
effectively work with foreign entities to detect and interdict threats 
as far from U.S. shores as possible?
    Even more important, a global architecture for countering nuclear 
terrorism will facilitate the critical coordination and sharing of 
information among the various involved agencies. The eventual goal with 
such a system is to be able to fuse detection data and intelligence 
assessments in a near-real-time environment to achieve overall 
situational awareness. Such an integrated approach to detection and 
information analysis will provide dramatic improvement in alarm 
resolution, threat assessment, trend analysis, and ultimately national 
defense against nuclear threats.

           THE REAL KEY TO DEFENDING AGAINST NUCLEAR TERRORIM

    As I've outlined, most of the necessary elements of a ``defense in 
depth'' against nuclear terrorism are defined and many are already in 
place. Work is under way to develop, demonstrate, and deploy 
increasingly capable nuclear detection systems. Long-standing threat 
assessment capabilities exist and are being enhanced with novel 
information extraction and data fusion tools.
    But the real key to countering nuclear terrorism is effective 
coordination among all of the agencies with responsibilities for this 
exceedingly difficult problem. The 9/11 Commission and WMD Commission 
reports spelled out very clearly the damage we do to national security 
when stovepiping and turf battles are the interagency norm. A recent 
GAO report (June 2005) highlighted the common problem of lack of 
effective planning and coordination among agencies responsible for 
combating nuclear smuggling.
    Partnership, collaboration, peer review, and communication are 
needed in order for the nation to successfully defend against nuclear 
terrorism. Definition of an overall global nuclear defense architecture 
requires coordination among technologists, policy-makers, and front-
line responders, educating each other on what is operationally 
required, what is technically feasible, and what is politically 
acceptable. Likewise, technologists, industry, and end-users must 
collaborate to define technical system requirements, to demonstrate and 
validate new systems, and to commercialize new technologies and 
transition new systems into the hands of the end-users. Interagency 
coordination is equally important in the sharing of threat information 
and assessments, in implementing and operating the overall defense 
system, and in responding to and handling real threat incidents.
    Cooperation and partnership are needed internationally as well, 
since much of the ``heavy lifting'' in countering nuclear terrorism is 
done abroad--nuclear material protection and control efforts, enhanced 
border and maritime security, international safeguards and export 
control regimes, law-enforcement collaboration in investigating 
trafficking incidents or interdicting suspect shipments, and so forth.
    In addition, in light of the difficulty of securing funding for 
long-term research efforts, it is critical that the various agencies 
with R&D charters coordinate their efforts, both to make sure the 
entire spectrum of needed research is covered and to see to it that 
scientific advances and technology developments supported by one agency 
are effectively moved from laboratory to deployment. Many of the LLNL 
technologies that are being deployed to counter nuclear terrorism are 
the product of many years of support by DOE/NNSA. Working in 
partnership, DHS, DOE/NNSA, DOD, and other federal agencies can ensure 
that, in total, the most important problems are being addressed, 
technology developments are effectively transferred to user 
organizations, and the nation's resources (technical talent, 
facilities, funding, etc.) are optimally applied to counter nuclear 
terrorism.

                            CLOSING REMARKS

    Unlike the days of the Livermore Study Group, when we talked of the 
need to prepare for the ``catastrophic maybe'' of WMD terrorism, there 
is widespread recognition of the reality, severity, and enduring nature 
of the terrorist threat, particularly the threat of nuclear terrorism. 
This recognition is being translated into increased funding for the 
organizations and programs chartered to counter terrorism and secure 
the U.S. homeland. Included in this increased funding are critical 
monies for the long-term R&D needed to generate the technological 
breakthroughs that will be required to turn counterterrorism concepts 
into effective operational systems. However, even as the nation 
increases its focus on protecting the homeland against nuclear 
terrorism, it is essential to continue support for the programs that 
provide early-stage defense in securing and interdicting nuclear 
material, the information analysis and data mining efforts to search 
for and provide early warning of specific threat activities, and the 
emergency response capabilities that enable the nation to deal 
effectively with the full range of nuclear terrorist threats.
    Just as U.S. scientific and technological superiority helped secure 
the peace during the Cold War, science and technology are key to 
winning the war against terrorism. However, terrorists are innovative, 
resourceful, and committed. Thus, we must be even more innovative, 
resourceful, and committed to thwarting their attempts to harm to this 
country and its citizens. WMD terrorism is an enduring threat, and the 
nation must prepare for the long haul. In particular, programs in 
proliferation prevention, counterterrorism, and homeland security 
require sustained investment. They are closely linked and must not be 
selected ``either/or''; neither can they be conducted in isolation from 
one another. It is critical that we work to ensure effective 
coordination, collaboration, and communication among the many 
departments and agencies with responsibilities for proliferation 
prevention, counterterrorism, and homeland security.
    We at LLNL have long been concerned about the terrorist nuclear 
threat. We have built on our historical nuclear weapons mission and 
developed expertise, capabilities, and technologies to meet this 
threat. LLNL is already providing critical elements of the nation's 
defense against nuclear, chemical, and biological terrorism. Our 
hallmark approach of integration--across technical disciplines and 
among R&D institutions, sponsors, and end-users--is well suited to the 
nuclear terrorism challenge. We are committed to using our scientific 
and technological resources to meet the nation's national security 
needs today and in the future.

    Mr. Linder. Mr. Schweitzer.

                STATEMENT OF GLENN E. SCHWEITZER

    Mr. Schweitzer. Thank you, Mr. Chairman, for inviting me to 
discuss a topic with you that has concerned me for more than a 
decade. And I will be talking from that perspective rather than 
simply as a representative of an organization.
    I am going to talk about dirty bombs, and I will try to 
quickly answer five questions. The first question: How real is 
the likelihood of a dirty bomb detonation? My answer is: Very 
real. They are simple to construct; the material is readily 
available in dozens of countries; the consequences will be 
highly disruptive, although the death toll will be low; and 
leading experts throughout the United States and the world 
predict it will soon happen.
    Secondly, what is the likelihood that radioactive material 
will be smuggled into the United States rather than terrorists 
using radioactive material that is already here for a dirty 
bomb attack in the United States? I would say the probability 
of smuggling it in in the near term is low, but in the longer 
term, as NRC and DOE tighten the reins on the way we handle 
waste materials, I would say the import option increases 
significantly in likelihood in the years ahead.
    Why should the United States be concerned over detonation 
of a dirty bomb abroad? My testimony--and there are a number of 
reasons, and I will just pick two. One is copycat scenarios are 
well-known now in the terrorist world. And, secondly, the 
United States has both public and private assets abroad.
    Next, what is the evidence that terrorist organizations are 
working with criminal organizations in smuggling of radioactive 
material? My testimony cites seven specific recent cases where 
terrorist organized crime groups were caught with the 
radioactive material in hand. There are hundreds of other 
reports, as my colleague mentioned, 600 I think he said, but I 
think these are very persuasive in that criminals with known 
links to terrorist groups have been caught with the material in 
hand and with other evidence which suggests they have dirty 
bombs on their minds. There are many more unconfirmed reports, 
lots of unconfirmed reports, of the drug runners handling 
nuclear materials.
    Finally, what should the U.S. Government do to prevent 
dirty bomb attacks? First, I think it is important to recognize 
that homeland security extends beyond the boundaries of the 50 
States to include the routes and--routes of nuclear terrorism. 
Secondly, many years of steady effort will be needed to reduce 
the threat to a tolerable level, and programs to counter the 
threat should be put in place for at least a decade. Short-term 
solutions will have little impact in this area.
    Thirdly, money is crucial for any networks, and the big 
money is in the hands of the narcotraffickers. Crimps in the 
drug and money-laundering supply lines will have direct and 
indirect effects in reducing the threat of high-tech terrorism.
    And, finally, governments have always had a stewardship 
responsibility in the nuclear field, and the United States 
cannot give too much emphasis to helping weak governments 
strengthen their regulatory infrastructures.
    In sum, Mr. Chairman, we need to follow the dangerous 
material trail, the brain trail, and the financial trail as 
best we can. And only by enlisting the efforts of countries 
throughout the world will we be successful in doing just that. 
Thank you.
    Mr. Linder. Thank you very much, Mr. Schweitzer.
    [The statement of Mr. Schweitzer follows:]

               Prepared Statement of Glenn E. Schweitzer

    I appreciate the opportunity to share with the subcommittee my 
views on the threat posed by the growing capability and interest of 
terrorist groups in embedding highly radioactive materials in explosive 
devices. I present this testimony in my personal capacity as a long-
time specialist in international affairs with a technical background in 
nuclear engineering who has attempted to find practical ways to combat 
international terrorism for more than a decade. Thus, while I am a 
staff member of the National Academies, I am not speaking on behalf of 
the National Academies or any other organization. Also, I have not had 
access to classified information on the topic being discussed today. 
Therefore, my views undoubtedly reflect only a portion of the total 
story concerning the coming age of the use by terrorists of dirty 
bombs.
    Nevertheless, I believe that the information and impressions I have 
garnered from open sources and from personal contacts with technical 
specialists and policy analysts interested in radiological terrorism 
will be helpful to you in making judgments as to the seriousness of the 
threat and appropriate responses by the United States--at the 
international, national, and local levels. I assume that the primary 
interest of this subcommittee is directed to the role of the Department 
of Homeland Security (DHS) in preventing a successful attack on our 
population and our assets within the 50 states. But as you well know, 
effective preventive measures must involve a number of government 
departments and agencies, and also international organizations. 
Therefore, some of my remarks are intended for a broader audience than 
only DHS.
    In preparation for this testimony, I reviewed my assessment of the 
linkages between organized crime and terrorist organizations that was 
published in 1998. At that time, there were clear overlaps between 
terrorist networks and organized crime networks--in Latin America, in 
Europe, and in Asia. However, many academics and government officials 
were attempting to draw sharp distinctions between terrorist groups 
that seek political changes and organized crime and drug cartels that 
are enterprises driven by a thirst for the accumulation of wealth. They 
argued that terrorists routinely use violence to achieve political 
goals whereas criminal organizations employ violence more selectively 
and only when bribery and intimidation fail. \1\
    But the reality then and now has not been so jigsaw-puzzle neat. 
Terrorist and criminal organizations rely on the same global 
transportation, communication, and financial infrastructures for 
illegal ploys. They take advantage of the same breakdowns in authority 
and enforcement in states under siege. They both seek increasing shares 
of the fortunes generated from narco-trafficking and other crimes. 
Whether mercenaries are hired to do the bidding of drug lords or of 
terrorist kingpins, the hit teams share a single motive in employing 
violence--earning their financial keep. And when terrorist groups use 
their own suicide teams, they too need some level of financial support 
to prepare for and to launch an activity--for example, money that is 
stolen through well known criminal devices such as credit card fraud. 
Later in the testimony I will show how these observations of the mid-
1990s are playing out with regard to current interest in the use of 
dirty bombs.\2\
    Also in the early 1990s, new terrorist scenarios could be clearly 
seen on the horizon. In 1993, I discovered a new advertisement of the 
Hong Kong Sunshine Industrial Company, a shadowy hub of organized crime 
trading in conventional arms. A freshly printed flyer of the company 
that was being distributed through underground channels was given to me 
by a foreign government official who apparently was well connected with 
purveyors of illicit activities. It stated that the company was 
offering employment opportunities for specialists with skills in 
rocketry and nuclear weapons.\3\ At about the same time, the Aum 
Shinrikyu sect in Japan became interested in weapons of mass 
destruction as they explored the availability of uranium, experimented 
with biological agents, and killed and injured hundreds of innocent 
passengers through release of sarin gas in the Tokyo subway system.
    I needed no further evidence then, nor do I now, that organized 
crime has entered a new phase of complicity with high-tech terrorist 
organizations. Thus, it should not be surprising that my 1998 book 
warned of a wave of anthrax letters and postulated the detonation of a 
dirty bomb at Europol headquarters in The Hague as plausible events. At 
the same time, I have always believed that for the near term, simpler 
approaches will be used by most terrorists. Thus, the book also 
suggested that greater attention be given to the possibility of suicide 
skyjackings and of repetitive subway bombings.\4\
    Now nearly a decade has passed. What has changed in the outlook 
that terrorists and organized crime will collaborate in spawning high-
tech attacks on western countries?
    There have been many changes. The following have not been for the 
better:*
        <bullet> The memberships of terrorist organizations have grown: 
        more recruits and more technically skilled members.
        <bullet> Terrorist organizations have been emboldened by 
        successful operations of like-minded brethren in the United 
        States, Europe, Russia, and elsewhere.
        <bullet> The number and distribution of terrorist cells, 
        loosely linked through the Internet and couriers, have 
        increased significantly.
        <bullet> Money laundering networks remain a problem as 
        financial fronts have long experience in reappearing in 
        different configurations after they are penetrated.
        <bullet> Drug trafficking routes continue to expand, with clear 
        linkages to al-Qa'ida and other terrorist organizations in the 
        Middle East and Asia
    Positive developments during the past decade have included the 
following:
        <bullet> The United States and other nations have expanded 
        counter-terrorism programs to protect populations and assets, 
        improve intelligence, and pursue known terrorists.
        <bullet> Weak governments are increasingly cooperating with 
        responsible western governments in rooting out safe havens for 
        terrorist groups.
        <bullet> International organizations are promulgating standards 
        for protecting dangerous materials and preventing thefts of 
        these materials (e.g., International Atomic Energy Agency's 
        Code of Conduct for radiological material) and are expanding 
        information-sharing with law enforcement organizations (e.g., 
        Interpol data base).
    Other pluses and minuses can be added to this list. But the bottom 
line seems clear. Terrorist groups are growing in strength while the 
vulnerabilities of their targets are only slowly being reduced.

    I have selected Dirty Bombs as the theme for this presentation 
because the probability of the detonation of a dirty bomb that 
disperses radioactive material at home or abroad is high. There are 
other means for dispersing radioactive contaminants into the air or 
water, but the dirty bomb is probably the easiest radiological 
dispersion device for terrorists to master and use. I share the view of 
many specialists that radiological terrorism is becoming a near and 
present danger, as indicated by the results of a poll of 85 experts 
recently conducted by Senator Richard Lugar concerning the threat of 
weapons of mass destruction. The results of the poll included the 
following:
        Respondents judged the probability of a major radiological 
        attack over the next five years to be greater than the 
        probability of a biological, chemical, or nuclear attack, with 
        68 of 83 respondents saying there was a 10 percent chance of an 
        attack that affects a major portion of a city. When the 
        timeline is extended to ten years, 40 of 82 respondents judged 
        the risk of such an attack as 50 percent or greater.\5\
    The following assessment of the International Atomic Energy Agency 
(IAEA) echoes these results:
    The radioactive materials needed to build a ``dirty bomb'' can be 
found in almost any country in the world, and more than 100 countries 
may have inadequate control and monitoring programs necessary to 
prevent or even detect the theft of these materials. . .What is needed 
is cradle-to-grave control of powerful radioactive sources to protect 
them against terrorists or theft.\6\
    A dirty bomb can take many forms and can range in size from a 
suitcase to a truck. The approach that would most likely be followed by 
a terrorist organization at present is to embed one or more ionizing 
radiation sources (IRSs) in an explosive device that depends on TNT, 
dynamite, C-4, or other available explosive material.\7\ Upon 
detonation, the radioactive material would contaminate areas in the 
vicinity of the explosion. The death toll from the radiation would 
probably not be high, with the number of victims killed by the 
radiation probably less than the number killed by the blast of the 
explosion. The size of the contaminated area would of course depend on 
the composition and the dispersal characteristics of the radioactive 
material (e.g., ranging from powder to metallic pieces), on the 
dispersion effectiveness of the explosive device, and on the local 
weather conditions. Some scenarios project contamination spreading over 
many blocks of a densely populated city.
    While the death toll might not be high, the disruptive effect of an 
explosion could be large. The levels of danger associated with nuclear 
contamination are poorly understood by most populations which only know 
that radiation exposure is not good and should be avoided. Thus, a rush 
to evacuate once word spread that radioactive contamination had been 
rained on businesses and residences might be hard to control. A multi-
block area of a city might well be closed following a detonation--
disrupting transportation, businesses, government facilities, and 
populated neighborhoods. Such closures might last days, weeks, or 
months depending on the nature and extent of the contamination and the 
success of clean-up efforts. All the while, displaced people might be 
hesitant to return to the area, worried about long-term effects of 
exposure to any level of contamination and concerned about repetition 
of such an act. A variety of books and articles have been written in 
recent years about the effects of a dirty bomb detonation under various 
scenarios.\8\
    For terrorist groups with some modest level of technical skills, 
the key to constructing a dirty bomb is availability of appropriate 
radioactive material. As noted in the IAEA statement, such material is 
omnipresent. Much is in the form of IRSs used in medicine, food 
processing, well logging, electricity generation, industrial gauging, 
and scientific research, for example. There are literally millions of 
IRSs scattered around the world, and tens of thousands of them have 
sufficiently high activity to make them worrisome components of dirty 
bombs.\9\
    Against this general background, I cite the following seven 
incidents since early 2004 that clearly indicate the interest of both 
terrorist organizations and organized crime in dirty bombs.
        <bullet> Scotland Yard charged eight terror suspects in London 
        with (a) plotting to commit murder using Americium-241 from 
        smoke detectors together with explosives in devices based on 
        schemes in the Terrorist's Handbook, and (b) having 
        surveillance plans for the New York Stock Exchange, the 
        International Monetary Fund, and the Prudential Building in New 
        Jersey. The leader was identified as bin Laden's ``U.K. 
        general.'' \10\
        <bullet> In a police scam, Scotland Yard arrested four terror 
        suspects attempting to purchase ``red mercury'' smuggled to 
        London from Russia for sale to a Saudi buyer who was purported 
        to be sympathetic to ``Muslim causes.'' \11\
        <bullet> Russian and Ukrainian security forces arrested an 
        international criminal group for possession of Osmium-187 near 
        Kursk.\12\
        <bullet> The Ukrainian security service confiscated three 
        containers of Cesium-137 and arrested four members of an 
        organized crime group in the Crimea.\13\
        <bullet> In a related incident, the Ukrainian security service 
        arrested members of an organized crime group who were in 
        possession of six containers of Cesium-137.\14\
        <bullet> The Ukrainian security service arrested members of an 
        organized crime group that is spread throughout the country and 
        seized two containers of Cesium-137 in Armiansk, Ukraine.\15\
        <bullet> Ukrainian police arrested 3-4 members of a criminal 
        gang who had Strontium-90 together with a large cache of arms 
        near Odessa.\16\
    In short, we are no longer talking only about hypothetical threats 
of terrorists and organized crime groups trafficking in dangerous 
materials that could be used in potent dirty bombs.
    Some dirty bomb experts believe that the most likely scenario for 
detonation of a dirty bomb in the United States is the theft of one or 
more IRSs in use or in storage in the United States and then detonation 
of a bomb in a nearby city. There would be no need to circumvent 
customs procedures that are increasingly sensitive to detection of 
radioactive material. Last week Business Week set forth a scenario of a 
dirty bomb being detonated at the New York Stock Exchange using 
radioactive material from an IRS that a sleeper cell had stolen from a 
hospital in New Jersey. Surely this type of scenario should be of 
concern.\17\
    But illegal importation of IRSs into the United States may become a 
better option for nuclear terrorists in several years. Soon the Nuclear 
Regulatory Commission (NRC) will have put in place stronger procedures 
for ensuring proper handling and security of IRSs, and the Department 
of Energy (DOE) will have completed most of its intensified effort to 
collect abandoned IRSs in the United States.
    Against this background, the following considerations heighten 
concern over thefts of IRSs abroad:
        <bullet> Once a stolen IRS enters the international black 
        market in Europe or elsewhere there is no way to predict where 
        it will end up. Indeed, international terrorist groups might 
        attempt to bring it into the United States.
        <bullet> The successful detonation of a dirty bomb anywhere in 
        the world could encourage copy cat scenarios in the United 
        States and elsewhere as has been the case with other tactics 
        adopted by terrorist organizations.
        <bullet> Stolen IRSs that make their way to remote terrorist 
        hideaways might be used for training purposes in preparation 
        for attempting theft and detonation of an IRS in the United 
        States or for sending suicide teams trained in dirty bomb 
        methods to the United States.
    Looking beyond these concerns that relate directly to the primary 
responsibilities of DHS, thefts of IRSs abroad can have additional 
adverse effects on U.S. interests, namely:
        <bullet> Dirty bombs could be used against U.S. government or 
        private sector assets abroad.
        <bullet> A dirty bomb incident anywhere could dampen public 
        support for using nuclear technology for civilian purposes at a 
        time when an expansion of nuclear power is being evaluated in 
        the United States and elsewhere in the light of recurring 
        energy problems.
        <bullet> The United States imports a variety of IRSs for 
        scientific, industrial, and agricultural purposes; and 
        malevolent use of an IRS abroad could adversely affect 
        international trade involving IRSs.

    A primary concern of this hearing is what can be done to prevent 
international criminal networks, terrorist networks, or hybrid networks 
from becoming a significant smuggling channel of ingredients for dirty 
bombs. The London cases cited above indicate that international 
trafficking in IRSs to be used in dirty bombs is coming of age. The 
Ukrainian cases suggest that while nuclear crime involving networks of 
small cells of criminals may be increasing, there is no direct evidence 
that construction of dirty bombs was the motivating factor in these 
cases.
    It is useful to look at other networks as well. Reflecting on the 
A.Q. Khan money-making network that engaged in trade of centrifuges for 
enriching uranium with countries which were on the black list of 
western countries, clearly Khan's official position in Pakistan and 
personal stature were keys to the success of this network. Apparently 
governments were his customers, and it seems likely that they were 
comfortable dealing with someone who had government credentials, 
regardless of whether Khan's authority was or was not misrepresented; 
and such respect for government operatives is an important lesson 
learned.\18\ Turning to the relevance of al-Qa'ida's financial network, 
the characteristic that stands out is the source of the money--the 
Saudi Government and Saudi charities. The network had many twists and 
turns; and if others have the starter cash, they presumably could copy 
many of the approaches.\19\
    Finally, the drug networks should probably be of greatest concern 
in considering the future of international smuggling of material for 
dirty bombs. They have long been channels for trade in conventional 
weapons, and they probably could handle IRSs without too much 
difficulty. At the same time, as previously noted, terrorist groups 
need financial sustenance for a variety of activities.
    There are already clear linkages of terrorist groups to the opium/
heroin trade from Afghanistan; and the amount of money involved is so 
large that astute dirty bomb terrorists may well seek direct or 
indirect ties with the many way stations along these routes. In 2003, 
U.S. Central Command reported its first seizure of a small al-Qa'ida 
boat smuggling hashish worth about $10 million. Since that time many 
reports have emanated from Afghanistan and elsewhere of al-Qa'ida 
involvement in drug trafficking. Also, related terrorist organizations 
have reportedly been involved in drug smuggling in the Philippines. 
Finally, one report indicates the possibility that drug money is being 
used for obtaining radioactive material for dirty bombs.\20\

    Against this background, what steps should now be taken to reduce 
the likelihood that dirty bombs will be detonated in the United States, 
in the near term or in the more distant future of say five years?
    First, the U.S. government is already taking many steps to prevent 
a dirty bomb detonation in the United States. As noted, the NRC and DOE 
are tightening security on IRSs and radioactive waste. At points of 
entry into the United States, radiation monitors are being deployed in 
increasing numbers and with increasing sensitivities. Sealed shipping 
containers are increasingly being certified as free of tampering en 
route to the United States. New York and other cities are arming 
enforcement agencies with pagers and more elaborate detection 
capabilities. And you know better than do I the many other steps to 
develop more robust security barriers throughout the country.
    Internationally, the United States has been a leader in galvanizing 
a multinational approach to preventing and intercepting radiation 
smuggling. The IAEA has adopted a variety of guidelines concerning the 
classification and handling of IRSs, methods for protecting and 
accounting for them, and recommended procedures for import and export 
of IRSs. Also, the Agency provides assistance to many countries that 
are endeavoring to strengthen their nuclear security systems. The 
United States initiated the Proliferation Security Initiative to 
facilitate search and seizure of ships suspected of having illicit 
weapons-related cargoes, and particularly nuclear cargo. DOE has 
mounted programs in more than 40 countries to upgrade the security at 
particularly vulnerable sites where radioactive material is used or 
stored. Also, DOE has improved radiation detection capabilities at 
international borders and at key ports throughout the world.
    Let me now offer several principles for advancing these and other 
efforts that are important for protecting the American people from a 
dirty bomb attack.
        <bullet> Homeland security does not begin at the outer 
        boundaries of the 50 states but extends to the roots and routes 
        of threats that are targeted on the 50 states.
        <bullet> While cradle-to-grave stewardship of IRSs is the goal, 
        many years will be necessary to reduce the threat of dirty 
        bombs to a tolerable level; and efforts that are launched to 
        contribute to achieving this goal should be put in place for at 
        least a decade.
        <bullet> Money is required for international networks of 
        criminals or terrorists or for hybrid networks to be effective, 
        and the biggest cache of accessible funds is in the hands of 
        the narco-traffickers. Crimps in their drug supply lines and 
        their financial networks will have indirect, but important, 
        effects for reducing many types of high-tech smuggling.
        <bullet> Governments have always had a clear responsibility to 
        ensure proper handling of all types of nuclear materials, and 
        the United States cannot give too much emphasis to helping 
        other governments strengthen their regulatory infrastructures 
        for ensuring adequate stewardship over dangerous nuclear 
        material.
        <bullet> In short, in order to ensure the safety of the United 
        States, we need to follow the dangerous material trail, the 
        brain trail, and the financial trail as best we can. And only 
        by enlisting the efforts of countries throughout the world, 
        will we be successful in doing just that.

                               References

<SUP>1.</SUP> Glenn E. Schweitzer with Carole D. Schweitzer, 
Superterrorism: Assassins, Mobsters, and Weapons of Mass Destruction, 
Plenum Press, 1998, p. 288.
<SUP>2.</SUP> ibid
<SUP>3.</SUP> ibid, p. 155
<SUP>4.</SUP> ibid, pp. 111, 230, 282
<SUP>5.</SUP> Richard Lugar, The Lugar Survey of Proliferation Threats 
and Responses, United States Senate Committee on Foreign Affairs, June 
2005, pp 22-23.
<SUP>6.</SUP> Inadequate Control of the World's Radioactive Sources, 
International Atomic Energy Agency, 2004, p.1.
<SUP>7.</SUP> For a discussion of common explosive material see 
op.cit., Schweitzer, p. 240
<SUP>8.</SUP> For example, see Management of Terrorist Events Involving 
Radioactive Material, National Council on Radiation Protection and 
Measurements, NCRP Report #138, Chapter 4.
<SUP>9.</SUP> For a discussion of composition of dirty bombs and 
possible scenarios, see Charles Ferguson and William C. Potter, The 
Four Faces of Nuclear Terrorism, Routledge, 2004, Chapter 6.
<SUP>10.</SUP> Ben English, ``Nuke Bomb Plot Foiled,'' Herald Sun, 
August 19, 2004.
<SUP>11.</SUP> Agence France Press, September 26, 2004
<SUP>12.</SUP> Interfax, October 2004, Kursk
<SUP>13.</SUP> ``Containers of Cesium Discovered in a House in 
Krasnoperekopsk District of Crimea,'' http://www.nti.org/db/nistraff/
2005/20050010.htm
<SUP>14.</SUP> ibid
<SUP>15.</SUP> NTI Data Base, ``Ukrainian Security Service Arrests 
Cesium Dealers,' June 4, 2004
<SUP>16.</SUP> Oleksandr Korchynsky, ``Ukrainian Police Discover 
Radioactive Containers in Arms Cache near Odessa,'' Segodnya, Kiev, 
August 16, 2004
<SUP>17.</SUP> Bruce Nussbaum, ``The Next Big One,'' Business Week, 
September 19, 2005, p. 42.
<SUP>18.</SUP> Michael Laufer, A.Q. Khan Nuclear Chronology, Carnegie 
Endowment for International Peace, Proliferation Brief, Voume 8, Number 
6, September 7, 2005.
<SUP>19.</SUP> Jean-Charles Brisard, Testimony to the Committee on 
Banking, Housing, and Urban Affairs, United States Senate, October 22, 
2003.
<SUP>20.</SUP> op. cit., Schweitzer, Chapter 6. ``Navy Makes Persian 
Gulf Drug Bust,'' CBS/AP, Washington, December 19, 2003. Rowan 
Scarborough, ``Drug Money Sustains al-Qa'ida,'' The Washington Times, 
December 29, 2003.

    Mr. Linder. Dr. Lee, do we have any idea how many locations 
there are of fissile material?
    Mr. Lee. How many locations? Well, I think if you are 
talking about the former Soviet Union nuclear facilities of one 
kind or another, I would say somewhere between 50--maybe 50, 
75, 100. You have got also around the world a great many 
nuclear reactors that I understand use highly enriched uranium. 
It is not just a former Soviet Union problem, it is also a 
problem that affects many other countries, including countries 
that have received highly enriched uranium from either Russia 
or the United States to run their reactors with. I don't want 
to be quoted on those numbers, but it is a fairly extensive 
problem extending really as a global problem.
    Mr. Linder. You said that a successful smuggling operation 
needs to put an end user together with a would-be seller. Do we 
have any idea who the middlemen are?
    Mr. Lee. Well, the middlemen might be criminal groups. They 
might be--
    Mr. Linder. Is the Mafia involved?
    Mr. Lee. Well, again, my sense is that your major criminal 
organizations that have a big stake in society, and lots of 
sort of legal as well as illegal connections, might not want to 
put themselves on the spot and to sort of incur the wrath of 
international law enforcement by getting involved in 
trafficking, and certainly on any significant scale nuclear 
radioactive materials on behalf of terrorist groups or even at 
all.
    So I think when you say Mafia, no. I see really the problem 
is sort of these kind of these criminal groups that are really 
somewhat outside the mainstream of their societies that might 
have ideological pretensions and ambitions and views that 
really go against--again, against the mainstream of their 
society. Like, for example, the Chechen groups in Russia which 
are involved in the supporting an insurgency there in southern 
Russia and the Caucasus. I mean, these are the groups I think 
you have to worry about.
    Also, there are all these small petty criminals that al-
Qa'ida has been recruiting in the jails of Western Europe, 
probably also in North America. When you are talking about 
these big criminal foreign nations, I am less sure that they 
are the ones that al-Qa'ida would be sort of partnering with.
    Mr. Linder. Dr. Juzaitis, who uses your database of 
transfers that you keep, the 600 to 700 things?
    Mr. Juzaitis. The database that I spoke of that the NAP 
publishes is published through the Department of Homeland 
Security. They are the sponsor. The information in those 
newsletters is directed at policymakers and sponsors to give an 
overall appreciation for the magnitude of the threat. And those 
we can actually count--the secondary transmission of those 
memos I wouldn't know, but it is official use only, but it is 
openly--it is available.
    Mr. Linder. Is all-source information significantly 
different than open-source? Can you answer that?
    Mr. Juzaitis. I think I would like to reserve the answer 
for that for a more appropriate session.
    Mr. Linder. That would be fine.
    Mr. Juzaitis. But let me say that we do analyze across the 
whole spectrum of adversaries, and we look for relationships 
among individuals, we look for relationships among states, 
organizations, and try to connect where there are motivations, 
technical capabilities, and access to materials as part of an 
analysis, and we try to do that with the all-source 
information.
    Mr. Linder. Thank you.
    Mr. Schweitzer, you talked about following the three 
trails, and one was the brain trail. Do we have a sense of who 
these people are? Should we be looking for people instead of 
things?
    Mr. Schweitzer. Well, there are all sorts of brains. There 
are the financial brains, there are the nuclear brains, and 
then there are the smuggling brains. And if you talk about 
nuclear scientists, I don't think there is any way to approach 
that except to encourage transparency around the world. And I 
strongly advocate an approach of an engagement to encourage 
transparency. Obviously, you won't get inside some of the 
classified facilities around the world, but I think that that 
is the only approach to that.
    On the smugglers, I am persuaded that drug smuggling is 
where the real problem is. I don't share the view that they 
won't touch it. I think that the day has arrived where they 
touch most anything. They touch all sorts of conventional 
weapons, they have the networks, and I think that those are the 
people you worry about.
    The financial ones, the Department of Treasury has been 
trying to crack that nut for a decade, and the people who have 
financial institutions are geniuses in folding and reappearing 
in another cloak the next day. So you just have to keep 
plugging away at it.
    Mr. Linder. Thank you. My time has expired.
    The gentleman from Rhode Island is recognized for 5 
minutes.
    Mr. Langevin. Thank you, Mr. Chairman. Again, I want to 
thank our witnesses for being here today.
    Let me begin with this. Our government has struggled to 
stop the transnational threats of drugs and migrant smuggling 
for quite some time now, as you are very well aware. And I am 
interested to learn about the new ways to attack smuggling 
networks so we don't use the same old methods that have failed 
against drug and migrant smugglers.
    Dr. Lee, you mentioned in your testimony that our 
government should construct a vulnerability profile of Russian 
nuclear energy enterprise and determine where smuggling is 
likely to occur. On that point, do any of our nonproliferation 
programs have this component? And, if not, how are the 
assessments made as to where we are going to--
    Mr. Lee. I believe this is happening on kind of a selective 
basis. I think DOE is doing a project to try to get sort of on 
a small scale to look at criminal groups and potential 
terrorist groups that are sort of acting or operating in the 
neighborhood of nuclear enterprises, and I think this is A very 
important step. You have got a sense of what kind of an 
environment. I mean, some of these nuclear facilities really 
exist in kind of a sea of sort of--and in many respects in 
neighborhoods that are highly undesirable, lots of drug 
trafficking, lots of other kinds of criminal activities. That 
doesn't mean, however, that all these criminals are necessarily 
interested in taking on the high-risk business of smuggling of 
nuclear materials, but it certainly is a risk factor.
    In terms of what is going on in terms of inside the 
enterprise, sort of personnel reliability systems, polygraphs, 
psychological testing, I think this is absolutely vital. I 
mean, it is vital from the standpoint of identifying risk-type 
behavior, for example, drug use, within the enterprise; you 
know, corrupt behavior, thefts or planned thefts, thefts that 
have already occurred. I mean, these are things that I think 
are being contemplated. Some of the Russians that I have talked 
to are somewhat leery of this. I think it is a question of sort 
of reimposing a totalitarian system OF sorts on the nuclear 
complex. But other Russians, I think, are beginning to see the 
value of these personnel reliability indicators that could 
really, I think, improve the security at the enterprise level 
itself.
    Mr. Langevin. What other techniques could our government 
use to stay ahead of the terrorists, in your opinion?
    Mr. Lee. Well, I think really it comes down to very much an 
intelligence-based system that can really go after terrorist 
groups and rogue states and other adversaries that are trying 
to obtain nuclear material. And here I think certainly we have 
to have our own sort of unilateral U.S. intelligence 
capabilities in countries like Russia and other former Soviet 
States as close as possible to areas of proliferation concern, 
like, for example, the former secret cities.
    Also, I think, though, we need to enhance our cooperation 
with host countries' security services, because I think they 
have a lot to teach us about what is going on, so what the 
threats are, and we can use the information they provide to try 
to configure our nuclear security systems more effectively.
    Mr. Langevin. In terms of our current nonproliferation 
programs, are you satisfied that they have some of these 
components already in operation?
    Mr. Lee. I think we are sort of moving in the right 
direction.
    Mr. Langevin. Could you highlight what the most important 
of them are?
    Mr. Lee. I think we are moving in the right direction, but, 
you know, it is a very slow process. And one of the things that 
worries me, I mean, frankly, about all of our programs is they 
have been very slow to implement. It is nobody's fault, it just 
happens. You know, that--the Soviet Union collapsed 15 years 
ago, and we have programs--we are talking about finalizing the 
securing of nuclear and nuclear materials and weapons by 2008; 
equipping 300, 330 customs posts by 2012; training 15,000 or 
creating 15,000 civilian jobs or weapons sites by the year 
2030. I am certainly not going to be around then. And 
meanwhile, but the threat is now. The threat is now. I mean, 
the terrorists are not going to--they are not going to wait 
until we put in all this architecture before consummating a 
threat.
    So we have to accept the possibility that some of the 
problem is already out there; it has escaped from government 
control. It is somewhere; maybe in the hands of terrorists, 
maybe not. But that is the problem that worries me the most of 
all of this. And, you know, where is this material? Circulating 
around the world somewhere. Is it buried in the birch forest in 
Russia? You know, where is it? But I don't think that we can 
afford to assume that some material hasn't already escaped. How 
do we recover it? I don't know the answer to that.
    Mr. Langevin. I see my time has expired, but thank you for 
your answer.
    Mr. Linder. The gentleman from Texas is recognized for 5 
minutes.
    Mr. McCaul. Thank you, Mr. Chairman.
    In my State of Texas, the border is always a big issue. And 
I went down to--I was invited by Henry Cuellar, Democrat from 
Laredo, to sort of assess that area. It is the largest land 
port on the southwest border. It is on the Mexican side, Nuevo 
Laredo. It is completely lawless at this point in time. There 
is a lot of violence. There are cartels going at war with each 
other. We had 43 U.S. citizens kidnapped last year alone in 
Nuevo Laredo. And when I was briefed by the DEA on this whole 
situation, they explained the--and I think, Mr. Schweitzer, you 
touched on this point. They showed us the cartel routes, and 
they smuggle contraband whether it is a bale of marijuana, 
whether it is human smuggling, whether it is potentially a 
nuclear device, and that greatly concerns me.
    A couple questions come to mind. In my view--you could 
comment on the coordination between agencies like the DEA and 
the FBI who look at these things and the Department of Homeland 
Security from an intelligence standpoint. And is it likely--are 
there devices that are small enough nuclear devices that could 
be smuggled like, say, a bale of marijuana could? What is your 
assessment?
    Mr. Schweitzer. I think Dr. Juzaitis is in a better 
position than I am to comment on the coordination of the 
government agencies.
    Mr. McCaul. If I could follow up with you. You mentioned 
that there is a theory that, particularly on the southwest 
border, they wouldn't touch this type of stuff, they wouldn't 
be associated, but you seem to have the countervailing view.
    Mr. Schweitzer. I am not sure--I don't buy that argument.
    Mr. McCaul. You don't buy which argument?
    Mr. Schweitzer. That they wouldn't touch it.
    Mr. McCaul. That they wouldn't touch it.
    Mr. Schweitzer. If the price is right, and they have some 
semblance of understanding of the need for shielding or 
protecting themselves or whatever, and--I don't think it is off 
limits at all for these organizations. In fact, as you say, 
they are getting into everything now.
    Mr. McCaul. I tend to agree.
    On the coordination issue?
    Mr. Juzaitis. Mr. Congressman, the coordination is 
absolutely required to protect these kinds of long borders. 
There is focus these days--let me back up one moment. There is 
a lot of focus these days on radiation portal monitors and 
protecting formal points of entry. However, I know that we are 
working very hard together, coordinated, across government 
agencies to look at nonports of entry and how you would ensure 
that smuggling is not occurring there. And that is where we 
argue that nuclear detection by itself may not be the answer, 
it is not the silver bullet, because it is impossible to 
instrument every inch of open border. Therefore, other 
technologies are being looked at, persistent surveillance 
technologies, and assessments are being made. These are in the 
formative steps, and they are less developed than instrumenting 
ports of entry, but they are being worked, and there is 
coordination occurring between the FBI, the customs 
organizations, and the national labs through the Department of 
Homeland Security.
    So coordination is occurring. It is not wonderful, it needs 
to be there even better, but I think the first steps are being 
made to make this more of a comprehensive architecture that is 
looking at all ways of getting into the country, not just 
through the obvious ports and airports.
    Mr. McCaul. These are all focused on the same area in sort 
of activity, but they all are have their own silos. DEA will 
just look at the drugs, for instance, and FBI will just look at 
the potential terrorists. And it seems to me that information 
sharing is vital.
    Mr. Linder. It is vital. And ideally this problem can be 
solved if you integrate good information, intelligence, 
detection, and response, interdiction and response. Heretofore, 
you know, up until 9/11, those were separately organized and 
run. Since 9/11, there is ever-increasing coordination. But 
unless we get a situational awareness, you know, in our 
detection infrastructure, which means you have to integrate 
information and other modes of knowing things besides 
detecting, it won't work. And that does involve multiple 
agencies and coordination.
    Mr. McCaul. Thank you, Mr. Chairman.
    Mr. Linder. The gentleman from Washington is recognized for 
5 minutes.
    Mr. Dicks. Many security experts including these witnesses 
believe that terrorists will conduct an attack using a dirty 
bomb rather than a nuclear device. Mr. Schweitzer, you 
mentioned that the Nuclear Regulatory Commission will revise 
their relatively lax security procedures for the handling of 
radioactive material that could be used in a dirty bomb. You 
also mentioned that the Department of Energy will have 
completed an intensified effort to collect abandoned 
radioactive material here in the U.S. Can you expand on the 
measures taken by the NRC and the Department of Energy?
    Mr. Schweitzer. Well, as you may know, the Department of 
Energy had an open-source recovery program for a number of 
years, and in the last recent years rounded up 10,000 of these 
ionizing radiation sources which could be the ingredients for 
dirty bombs. And that program is continuing, and they are 
gradually reducing the number that are loose in the United 
States because of companies going bankrupt and leaving the 
sources behind, or because of mishandling or whatever, and I 
think that situation is very much better than it was, and it is 
getting better all the time. DOE is funding that program, and 
it is being aggressively run out of Los Alamos laboratory. So I 
feel comfortable that they are going a good job.
    Mr. Dicks. Are there additional steps that could be taken?
    Mr. Schweitzer. I think the program managers would say: 
Give us more money, we will move faster. But I am not in a 
position to say how fast they can or can't go.
    On the Nuclear Regulatory Commission, there are right now 
proposed regulations to impose cradle-to-grave responsibilities 
on the holders of ionizing radiation sources specifically, 
which I think is the likely ingredient of a dirty bomb, and 
those regulations should be rolling out in the next few months. 
So I may--
    Mr. Dicks. Are the regulations going to help? Are they 
going to be positive?
    Mr. Schweitzer. They certainly will be positive. They will 
put a greater burden on the holders of these sources to make 
sure that they are under more stringent security control; and 
that when they are finished with them, they won't just throw 
them out in the back yard, they will get rid of them properly. 
So, yes, I think those two activities are very positive.
    Mr. Dicks. Dr. Lee, witnesses at previous hearings have 
testified that current U.S. and international programs have not 
adapted to today's nuclear threat, the terrorists' pursuit of 
nuclear weapons. Do you believe that we need to broaden our 
focus on the human threat from scientists to other employees at 
nuclear facilities?
    Dr. Lee. I certainly do. I think we are going to have to--
we are going to somehow have to persuade the Russians who right 
now, I think, are rather reluctant to impose some very 
stringent nuclear security systems, personnel reliability 
systems at the nuclear enterprise level. This means very rigid 
or much more rigid, rigorous screening techniques for people 
who are coming in to work at these facilities, and also a lot 
of different postemployment screening techniques that we can 
use to try to detect, again, evidence of corrupt behavior or 
risk factors such as, you know, personal habits that might make 
people vulnerable, people inside the enterprise vulnerable to 
pressure from criminals or terrorist groups, which I think is a 
major problem.
    Certainly by extension, I think these same ideas can be 
applied to people, officials that are responsible for the 
interdiction of nuclear materials, customs officials right now 
in Russia, notorious cases of bribery of customs officials. I 
mean, this is certainly a risk factor in terms of nuclear 
smuggling. So we want to get the best possible people in there, 
and we are going to have to use some techniques that are used 
in the United States, transplant these to Russia and to other 
former Soviet States as soon as we can do this.
    Mr. Dicks. The administration has praised the Nunn-Lugar 
program for its accomplishments in the former Soviet satellite 
States and Russia's interior, yet 2005 funding reflected only 
modest increases in the program's funding. More broadly, 
critics have voiced concern that the administration's 22 
percent increase in funding for threat reduction programs, 
though a step in the right direction, is too little too late. 
Can Nunn-Lugar accomplish its goal with its current level of 
funding from Congress?
    Dr. Lee. I think I would like to refer at least part of 
this question to Dr. Juzaitis. I think it is not a question 
of--not just a question of how much money we are putting into 
these programs. I mean, there is certainly constraints on the 
other side, on the Russians' side, how quickly we can actually 
implement these new security safeguards that we are putting in.
    I think we also have to have smarter safeguards. Again, 
these personnel reliability systems, I think, should be a major 
focus of our efforts, measures that can contain, defeat 
corruption, difficult as this might be. And I think this is 
really where we have to be going with these programs, because 
this is where the real threat comes.
    Mr. Dicks. All right. Thank you, Mr. Chairman.
    Mr. Linder. The gentleman from California is recognized for 
5 minutes.
    Mr. Lungren. Thank you very much, Mr. Chairman. And I thank 
our witnesses. As you know, we have competing requirements to 
be in different places, and so I am sorry I wasn't here to hear 
your testimony, but I assure you I will go through it in 
detail.
    A question I would pose to all three of you is this: The 9/
11 Commission suggested that one of the problems we have had in 
government is a failure to be imaginative, to imagine the 
unimaginable. I recall a number of years ago when I was in a 
small group, former President Nixon was talking about the 
aftermath of the Walker spy incident. And he said, you know, 
when we were originally dealing with the threat of worldwide 
communism, we had to deal with people in our midst who turned 
on our country because they believed in what they were doing. 
Now we have a situation where people are doing it for purely 
monetary reasons, referring to the Walker spy incident. And I 
know that you have, at least one of you has, covered it 
somewhat in your testimony, prepared remarks, but how serious 
is the concern we should have that we are not only dealing with 
al-Qa'ida and al-Qa'ida sympathizers, but dealing with others 
who would be involved in this for purely monetary reasons, 
criminal-type organized crime? Should that be a serious 
consideration on our part? Yes, sir.
    Mr. Schweitzer. I think I reported in my testimony that the 
incident in London were simply--reportedly were middlemen 
working for cash for a buyer in Saudi Arabia to supply the 
radioactive material, and I think this will be more and more 
common. The terrorists themselves will get access to money, and 
I think it will be through the drug routes and other ways, and 
they will be able to buy off the criminals to do some of the 
heavy lifting.
    So I think it is a combination of certain groups who have 
ideological problems, and they want to have retribution, and 
there are aiders and abetters who are in it for the cash. Now, 
that hasn't played out very much right now, but I think as we 
look to the future, that is going to play out more and more.
    Mr. Juzaitis. Mr. Congressman, I responded earlier to an 
earlier question about the scope of adversaries that we are 
looking at, and I guess I would like to reiterate at this point 
the fact that to be imaginative means to imagine all kinds of 
relationships between people that have motivation, that have 
technological capabilities or have access to technological 
capabilities, as well as access to materials. There is a nexus 
that has to be keenly focused on, and that is the combination 
of those three.
    Money, of course, is the motivating element for many 
adversaries, but there are others. As my colleagues said, 
ideological motivation is a motivator. So as we track and as we 
observe in our intelligence programs, in looking at all-source 
information as well as open-source information, we should 
always be maximizing our ability to establish the relationships 
between those three: motivation, technological capability, as 
well as access to materials.
    Mr. Lungren. Dr. Lee.
    Mr. Lee. Let me just make a comment on that. I think when 
we are talking about criminals and their propensity to get 
involved in a high-profile, high-risk business like nuclear 
smuggling, I think that we have to make--I think there are 
criminals and criminals. I know that law enforcement officers, 
for example, in Israel and France and other countries around 
the world find criminals to be sometimes a very useful source 
of information about terrorist groups. You know, this is an--
informal liaisons or alliances, you might say, are formed 
between law enforcement and criminal groups in order to root 
out more dangerous antisystemic terrorist elements. And I think 
within the criminal world, I mean, there are people who might 
be willing to smuggle nuclear weapons into the United States 
for money, but I would still argue and--that the majority of 
criminals who have successful businesses of one kind or another 
probably are not going to want to get into that kind of 
business.
    Mr. Lungren. Unless we imagine the unimaginable. I mean, 
based on the experience I had in law enforcement, one of the 
things that was acutely important to us was the intelligence 
cooperation among different elements of law enforcement. You 
could be doing a drug case--in California we were looking at a 
drug case, and we happened upon one of the largest organized 
efforts for staged automobile accidents. We weren't looking for 
that, we were looking for drugs, but in the process of doing 
that, we found that.
    And sometimes I think we have to disabuse ourselves of the 
notion that the war on terrorism in a very real sense can 
totally be concentrated on al-Qa'ida and al-Qa'ida-like people; 
that there are others who, for whatever reason that has nothing 
to do with ideology, may, in fact, enhance or cooperate with 
those who are doing that. And I guess I was just trying to get 
a feel from you that, because of the enormity of the question 
of nuclear devices or of dirty bombs, whether that in and of 
itself--can we be comforted that criminals would be driven away 
from this because of the awfulness of the impact? And my own 
sense is we make a mistake if we look at it that way.
    Thank you, Mr. Chairman.
    Mr. Linder. Does the gentlelady from the District of 
Columbia seek to inquire?
    Ms. Norton. First of all, I want to thank you, Mr. 
Chairman, for holding this hearing. I regret very much that I 
have been detained. Of course, I do want to say that we are not 
close to the border where people most talk about smuggling, but 
I represent the District of Columbia, and my major concern is 
when both Presidential candidates, for example, say that 
nuclear is the greatest threat, when the Secretary of Homeland 
Security focuses us on nuclear, and then we learn how easy it 
is to, in fact, smuggle a device into this country--I mean, if 
it is so easy, I don't know why it hasn't already been done. 
And I don't know whether that is what we most have to fear.
    We, of course, are looking now for known terrorist 
organizations, but I would like to ask you whether or not it is 
likely, given what we are told is the ease for, in fact, 
smuggling in such devices, is it likely that that has been 
done, could be done? Or is that more difficult than we have 
been given to believe?
    Mr. Lee. I will just make a quick comment, because I think 
my colleagues are probably in a better position to talk about 
this, but we have a multilayered system of defenses starting at 
the gates of Russian nuclear facilities and going through 
borders, megaports, and coming all the way to the United 
States. And our system of defense is at the U.S. border. Each 
one of these lines of defenses has major gaps, holes, can be 
exploited by clever adversaries.
    You know, I share your fears, and I just hope that what you 
say, this scenario, is not going to come to pass, but I think 
there are systems in place. Classified information, I suppose, 
can probably provide some additional information to what could 
be said in this hearing, but this certainly is a very good 
question. I mean, I hope our supply-side nuclear control 
programs are more successful than our supply-side drug control 
programs. But you just asked; I mean, look at what does come in 
here already, drugs, illegal immigrants.
    Mr. Juzaitis. I would like to complement that statement by 
an observation that we should not rush to the conclusion that 
nuclear weapon or nuclear material smuggling will automatically 
transpose itself into the drug smuggling network. They are 
dominated by very different supply-and-demand equations. In the 
drug business, there are millions of customers and millions of 
suppliers, and the network is very ubiquitous.
    In terms of nuclear materials, as I said, they are not that 
easy to come by, and it does demand a nexus, a coming together 
of motivation, access to material, as well as technical 
capability.
    So the sources are not as various as in the drug case. And 
one could argue that having gotten enough material to pose a 
real radiological threat to the country, a terrorist may not 
wish to consign the delivery of that to a drug smuggling 
network. They would want to maintain much closer control over 
that than is usually the case in the drug business.
    Ms. Norton. Well, what makes you think that a drug 
smuggling network would use it? I don't blame them. Don't they 
have their own networks? Why would they need to go to drug 
smugglers who have no reason to take unnecessary risks since 
smuggling for them is as easy as walking across the border? I 
am assuming that they would have to understand that they have 
to find their way into the United States, and they would figure 
it out. They certainly figured it out on 9/11.
    Mr. Juzaitis. That is correct. I was just making the point, 
they would probably not--yes, then we agree, they would not 
necessarily use the drug smuggling network. But, again, the 
answer is vigilance in order to observe any kind of activity 
like this that we could see early.
    Mr. Lee. Drug smuggling, we are talking about a mass market 
business here. Again, lots of suppliers, lots of consumers. It 
certainly is not the characteristics of the nuclear smuggling 
business. But, of course, all you need is really one hit on the 
nuclear smuggling side, and the consequences could be 
devastating.
    Mr. Schweitzer. I hesitate a little bit on this. If you are 
talking about smuggling into the United States in the near 
term, I mention in my statement that I don't think it is going 
to happen, because the nuclear material, at least for dirty 
bombs, is more easily obtained here. And there is no need to 
smuggle them in. But as we tighten the controls here, then the 
option becomes more interesting.
    There is a very serious nexus between drug smuggling and 
nuclear in Tajikistan, which is on the Afghan border. It is the 
edge of Russia, and the place swarms with both radiological 
material and drugs, and those are headed for Europe. 
Fortunately, there is an ocean between us and Europe.
    But I think we better be careful to say that drug smugglers 
are happy with what they are doing, and they are not going to 
be tempted by big money to take on the nuclear issue.
    Ms. Norton. Thank you very much.
    Mr. Chairman, my concern is that the drug smugglers are the 
ultimate teachers here. They know how to do it, and they have 
something to teach and are willing to teach for money, not so 
much that they themselves will lend their network to it. I 
think they are fat and happy, actually. I agree that you can't 
take them out of the equation, because once they see there is 
money to be made, look at Pakistan, where the top general, an 
official, is involved, and he is in office.
    So, Mr. Chairman, I thank you for giving me the 
opportunity, particularly since I was delayed. But I do think 
this is the most serious question, and I think that, even if we 
had a hold on proliferation, and I am sure there is testimony 
here that we are nowhere near where anybody would say that, 
then it seems to me we would still have the problem that these 
materials can now be made all over the world and that there are 
scientists all over the world who might well be willing to do 
so, even in the face of proliferation.
    So guarding this country and figuring out ways to do so, 
assuming the worst case, seems to me to be the most important 
thing we can do when it comes to nuclear materials.
    Thank you very much.
    Mr. Linder. I thank the gentlewoman.
    The gentleman from Connecticut.
    Mr. Shays. Mr. Chairman, thank you for having this hearing, 
and I thank our witnesses, three truly outstanding witnesses 
that have tremendous backgrounds. As Mr. Lungren said, we could 
spend hours, frankly, dealing with this issue.
    I don't know if you will do a second round, but the bottom 
line to my concern is, as I listen to you, I think I will not 
be surprised--you just reinforced it--I will not be surprised 
if there is ultimately an attack, a nuclear attack and, 
clearly, definitely not surprised if there is a dirty bomb in 
the United States, in the next 5 to 10 years. I just wouldn't 
be surprised. I mean, I would be shocked by it, but I wouldn't 
be surprised. By ``shocked,'' I mean the implications of it are 
shocking.
    Would you be surprised? I would like to ask each of you.
    Mr. Schweitzer. I will go first, because I spoke to that 
issue. Senator Lugar ran a survey of 85 experts, and the 
consensus of those experts was that, within 10 years, there is 
a 50 percent chance. I think they were probably a little bit--I 
think they were too optimistic, myself.
    Mr. Shays. Optimistic--
    Mr. Schweitzer. I think the percentage is higher than 50 
percent.
    Mr. Juzaitis. I have no basis of making a mathematical 
assessment of that nature. I think the kinds of things that we 
are talking about don't lend themselves to stochastic analysis, 
statistical analysis. There are too many human factors 
involved, performance factors involved.
    On the other hand, I would say, what do we do? What is 
actionable out of that? No matter what probability--
    Mr. Shays. Let's get into that. So you are saying, you 
would be surprised?
    Mr. Juzaitis. No, I am just withholding judgment. I have to 
act and do everything--
    Mr. Shays. I am not asking you percentages, because it 
could even be one out of 20. But one out of 20 is possible. And 
the issue is, if there was a nuclear explosion in the United 
States, would you basically say, oh, my God, I never thought 
this would happen? Or would you say, well, I am not surprised? 
I don't need a long answer to it. What is the answer? Don't 
scientists think about things like this?
    Mr. Juzaitis. They do, all the time.
    Mr. Shays. If it happened, would you be surprised?
    Mr. Juzaitis. We do our work as if we would not be 
surprised.
    Mr. Shays. Okay.
    Dr. Lee?
    Mr. Lee. I wouldn't be surprised.
    On the other hand, I guess we have to ask the question of 
whether a terrorist with a nuclear weapon would necessarily 
want to use it against the United States.
    Mr. Shays. Okay, don't even wonder about that.
    Mr. Lee. Or use it as a threat instrument.
    Mr. Shays. Good grief--
    Mr. Lee. I would go pretty much with what Glen Schweitzer 
said, I would not be surprised.
    Mr. Shays. In the 6 years, now 8 years really, that I have 
done this work in the National Security Subcommittee as 
Chairman, the one last thing I wouldn't even wonder about it--I 
think they crave to do it. By ``they,'' I think Islamic 
terrorists would consider that they had done the Lord's work in 
their own twisted way.
    I have seen a weapon at Los Alamos that was basically made 
by material that someone could make pretty easily, as long as 
you didn't care about yield, as long as you could get enriched 
uranium to collide fast enough, 50-year-old technology, right, 
and do that, maybe it wouldn't fit nicely on the tip of a 
nuclear warhead, but a terrorist doesn't care about that. It 
would be an ugly looking thing. It would be large, but it could 
work.
    What is interesting about your hearing, Mr. Chairman, is 
the only issue, in my judgment, is, can they get a hold of the 
weapons grade material? That is the only issue. And you all 
have made a strong case for, well, they sure as heck could ship 
it into the United States, enriched uranium, basically, about 
30 pounds, and I could hold it with my hands, and it is not 
warm. Plutonium I think would be more difficult for them to do. 
I could hold it in my hands, and it feels warm. But it is the 
size of a large orange, as opposed to a large grapefruit for 
enriched uranium. So these things to me seem to be hugely 
important.
    The only point I would kind of make where I wrestle with 
this, I believe in Nunn-Lugar. My challenge with Nunn-Lugar is, 
I think the Russians don't spend half the money we give them. 
They don't quantify what they do. They think that we want to 
know, we have this kind of desire to get at their technology 
and know what they know, and yet all we want is for them to get 
this stuff and contain it. That is the only thing we want. So I 
am willing to spend even bad money on this.
    But maybe could I ask for a reaction to whether they think 
the Russians spend all of this money or a part of the money 
that we give them?
    Mr. Lee. Well, it is fairly clear from talking to the 
Russians, at least the ones that I have seen in recent visits 
over there, they are less concerned about the insider threat, 
the corrupt insider stealing the material, making off with it 
and selling it somewhere, than they are about the possibility 
that their local Chechen terrorists could break into a nuclear 
facility and use this as kind of a staging point for some 
demand, like removal of Russian troops from Chechnya.
    I don't think the Russians take these scenarios seriously 
enough. I don't think they are sharing information they should 
be sharing about smuggling incidents. It is a very difficult 
country to get information from.
    Somehow, at the top level of both of our countries, we have 
to work out a much better information sharing system on this 
smuggling problem, both insider threats within nuclear 
enterprises and also the kind of threats that are out there. 
For example, al-Qa'ida, Iran, their procurement networks in 
Russia. I mean, what is going on? We have very little 
information on this.
    Mr. Shays. Thank you.
    Mr. Linder. Dr. Juzaitis, in your testimony, you said more 
countries may join them. I think we know about 20 nuclear 
countries, ballpark. Who are we concerned about?
    Mr. Juzaitis. Well, I think our attention these days is 
being placed on Iran and North Korea. Two, for example.
    Mr. Linder. South Africa?
    Mr. Juzaitis. As you know, South Africa had a program and 
dismantled it very convincingly.
    Mr. Linder. Did they?
    Mr. Juzaitis. Yes.
    Mr. Linder. Any other nations you are worried about?
    Mr. Juzaitis. We worry about everybody who has access to 
nuclear energy in fact because even as we talk about securing 
the legacy materials of the Cold War, there is a brand new 
class of materials in an expanding nuclear energy world that 
are being produced in nuclear reactors ostensibly for peaceful 
purposes all across the world. So this whole latent threat of, 
what do we do about the material in an expanding nuclear energy 
economy, should also factor into our equation of how to deal 
with this problem.
    Mr. Linder. How effective have international organizations, 
such as Interpol, been in cooperating with us to detect, arrest 
and prosecute nuclear smugglers, each of you?
    Dr. Lee?
    Mr. Lee. I think I will defer on this. I have visited 
Interpol and the International Atomic Energy Agency, and I 
think they do a fairly good job of collecting information that 
other governments are willing to tell them, but they are not 
really primarily agencies involved in investigating nuclear 
smuggling.
    We have not really gone beyond the first or second level in 
the business of collecting information about the internal 
workings of this traffic. We know really very little about it. 
A lot of the information is being held by law enforcement 
organizations in Europe and Russia that are not willing to 
share criminal cases they are sitting on.
    A lot of the stuff needs to be brought into the light of 
day so that we can analyze this information and get some 
understanding of how these networks operate.
    Mr. Linder. Thank you.
    Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman.
    Dr. Juzaitis, you cite the need for an overarching, global 
architecture to counter the nuclear terrorist threat. This 
architecture would obviously require the Federal Government to 
coordinate its efforts to secure material at its source, track 
movements and enhance detection and interdiction efforts. While 
the Department of Homeland Security would not be involved in 
securing material at its source, it certainly could play a role 
in tracking material and detection and interdiction operations.
    The Department, as you know, has established the Domestic 
Nuclear Detection Office this year to develop the global 
detection architecture. I wanted to ask you, do you think the 
DNDO is the right step to develop a coordinated approach to 
combat the nuclear terrorist threat? I know you have touched on 
it already, but what other steps should the government take to 
develop a nuclear terrorist strategy?
    Mr. Juzaitis. I guess I would like to say that the DNDO, 
standing up the DNDO is a step in the right direction. It 
embodies the functions of coordinating with other agencies in 
the way that we at the laboratories would like to happen.
    There is more work to be done, and we have to--again, we at 
the labs work with all of the agencies. So by the time we are 
thinking about the problem in its technical context, the 
boundaries of agencies should not--it is an integrated problem. 
The DNDO is a good step at coordinating multiple agencies.
    The architecture itself, this is the first time that we 
have had multiple programs across the U.S. Government. But this 
has been the first time that a global architecture has been 
even talked about in the sense of having a risk-based 
integration of multiple layers that give you a defense in 
depth. So we applaud that function.
    Mr. Langevin. And do the other witnesses care to comment at 
all?
    Mr. Schweitzer. Mr. Chairman, I would like to make one 
comment. I don't really--I am uneasy with the drift of the 
conversation. It is as if the United States is going to go in 
and do all these things. The key is the host countries taking 
the steps, whether it is Russia, whether it is Pakistan or 
whatever. What we do in Russia is trivial compared to what they 
do themselves. The whole thrust of the U.S. policy should be to 
help them get on their feet and do it themselves.
    We should not be talking about how much more money we need 
to give to Russia. We should be talking about how much money 
they need to put into it, and we should adopt approaches that 
encourage them to do that. It should not be a Washington-driven 
program, as it has been for the last 15 years. It needs to be a 
Moscow-driven program that meets international standards.
    So the idea that we are going to design the global 
architecture for all the other countries in the world, to me, 
doesn't make sense. The problem is too big. It has to be each 
country has to take charge of its nuclear material and be a 
good steward of that material.
    Therefore, I am a little worried about the notion that this 
is going to be a Washington-driven movement to secure nuclear 
material all over the world. It is just not going to happen.
    Mr. Langevin. Mr. Schweitzer, let me ask you, on that 
point, and the other witnesses can comment, do you feel that 
the Russians sufficiently get it, that they need to secure this 
material? Or is it kind of one of those issues of what they 
feel they don't know won't hurt them, and obviously mistakenly 
so? But do they understand how serious this is?
    I think it was Mr. Shays, my colleague, someone raised the 
issue that it is questionable whether the Russians are actually 
spending all the money on trying to secure this material at its 
source that we are actually giving them.
    Mr. Schweitzer. Talking about fissile material 
specifically, there is no question that the Russians from the 
top all the way through the ranks do not share our concern as 
to the vulnerability of their institutions. They don't see--
they don't believe that these institutions are leaking like our 
experts contend they are. There is probably some halfway in 
between which is the truth.
    But one of the--as result, the Russians say, you want to 
put up the money, we will upgrade them; but if we have to put 
up the money, why should we upgrade them? They are safe. We 
know how to protect facilities.
    There were indeed a few incidents in the nineties in which 
the Russians readily confess up to of small amounts of material 
being taken out. There may have been other incidents which no 
one knows about. But in terms of Congressman Shays' comments 
about, are they ripping off the money, if I have any criticism 
of the DOE program, they are spending too much time auditing 
the money.
    The answer is, in my belief, I don't believe they are 
ripping off the money. Most of the money goes to the United 
States; it doesn't go to Russia. I bet we have 150 visitors in 
the program in Russia today. We get the reports every week of 
how many Americans are over there auditing what is going on, 
and it is enormous.
    So I think it is a bad rap for DOE to say their money is 
being ripped off. It certainly is not, at least in my view. But 
I do feel very strongly that it is time well past that we pass 
the torch to Russia; we mobilize the G-8 partners to help us 
and put the monkey squarely on their back to start coming up 
with the money. Because I think if they realize that the world 
doesn't share their optimism, that everything is safe, even 
though you walk around those 30--you go around those 30 
kilometer perimeters and see holes in the fences, I think we 
are in trouble.
    This one is just too big. If you have radioactive sources, 
there are tens of thousands of them out there. How are we going 
to police that?
    Mr. Linder. The gentleman from California.
    Mr. Lungren. Could I switch times?
    Mr. Linder. Absolutely.
    The gentleman from Connecticut.
    Mr. Shays. If that is all right. I love people who have 
strong feelings and passion, maybe because I think I do, so I 
compliment you for that. But I think you are just totally off 
base, because I don't think you could even come close to 
documenting that they are spending the money right.
    Let me just finish. Maybe I am judging it from a wrong 
experience, but I went with Nunn and Lugar to Russia. I looked 
at their chemical sites. I looked at some of their chemical 
sites. I looked at some of their biological sites, and I looked 
at Mayak. Then I went to Murmansk on another trip.
    I went up there knowing we are spending millions and 
millions of dollars to have them break down their subs so they 
don't just have them sit in water and sink to the bottom with 
all the radioactive material.
    What they do is they chop off the front and back, take any 
radioactive material, open the hatch and stick it in there and 
let it float, and that is the way they used to get of their 
ships; they just let them sink in the fjords. But these are 
radioactive.
    So, at any rate, we go and drive around. It is a huge site. 
I counted less than 30 people. I started to raise questions 
about the thousands of people that they are billing us for. 
They would not show me any more than the 30. To placate me, 
they let me see K-19--was that the ship? And the one that sunk, 
they let me see that. They let me see the one in the movie. But 
I never saw more than 30 people.
    To placate us more, they showed us some of the parts they 
had taken apart, and we could take them. But they never 
documented.
    So I just think you hope they are spending the money right. 
I don't think they have ever documented they spent the money 
right. Now, maybe I am mistaken in taking that experience with 
the breakdown of the radioactive stuff and equating it with the 
other areas, but then I had people in Mayak say we built the 
Mayak plant, so, yes, we know what we spent for it. That, I 
would agree with you.
    I just would make one more point. When we saw the chemical 
sites, if any logical person could think they protect them, we 
saw about a million shells, give or take, hundreds of 
thousands. They look like wine bottles put in. They were in an 
old building that would be what somebody goes to when they go 
to summer Camp. They were on cinderblocks. They only had a 
padlock on the door. Someone could simply take out one of those 
chemical shells and just put in a dummy wood piece.
    So there is nothing that gives me confidence about the 
Soviets taking this seriously or being believable.
    Mr. Schweitzer. I will answer very quickly. I have walked a 
number of the sites in the nuclear area only, specifically, and 
specifically fissile material. I have no idea what they are 
doing up north where you were, and I have no way to doubt you.
    I would agree, from my judgment, they may not be spending 
the money correctly, but I don't think it is going into the 
director's pocket. I don't think it is going into the new 
Mercedes, which was the worry 15 years ago, that we give money 
and all the Institute directors have new Mercedes. I don't 
think that is happening with the DOE program for protecting 
fissile material.
    Mr. Shays. Why? You just don't think it, or why? On what 
basis can you come to that conclusion?
    Mr. Schweitzer. We have seen the expenditure records and we 
have seen the actual upgrades. But I am not saying they did the 
right thing. I mean, that is a different issue. There are lots 
of places where you can see where this detector was put in 
mistakenly or whatever.
    I guess I have become a defender of that program, even 
though I am usually considered a critic.
    Mr. Shays. Thank you.
    Mr. Linder. The gentleman from California.
    Mr. Lungren. Thank you, Mr. Chairman.
    I would like us to focus on something, Mr. Schweitzer, that 
you talked about in your presentation, at least in your written 
remarks, about selecting the dirty bombs to be the theme for 
your presentation. I take it from what you have written, you 
believe this scenario of a dirty bomb being exploded is more 
likely than another type of device that we might include in the 
overall subject we have today. Is that correct?
    Mr. Schweitzer. Yes, I think a dirty bomb is more likely 
than some kind of a device to disperse, a fan type device to 
disperse radioactivity or certainly a fissile device. Yes, I 
think it is the most worrisome in the near term, not in terms 
of consequences, but in terms of likelihood.
    Mr. Lungren. I understand.
    Doctor?
    Mr. Juzaitis. I think that is very logical. These kinds of 
dirty bombs would be more--that kind of an attack would be more 
probable. However, the consequence is not the same as an 
improvised nuclear device that would deliver yield.
    The saving grace of that though is the amount of materials. 
The radioactivity represented by the sources that would be used 
in dirty bombs is also easier to detect, and therefore nature 
gives us a chance at identifying those things before they wreak 
havoc. Therefore, that also argues for a layered defense 
mechanism or a global architecture where we actually have 
radiation detection within our borders, because the kind of 
materials that one would use for a dirty bomb do not just 
originate outside our shores.
    So a comprehensive architecture would include detection 
capabilities within our shores, and given the nature of the 
material to be used in those bombs, they are easier to detect 
than one would in special nuclear material for bombs.
    Mr. Lee. Radiological materials, our systems of detection 
that we are placing abroad, and I guess to some extent at our 
own borders, they can detect this material quite easily. On the 
other hand, highly enriched uranium, which is the materials the 
terrorists are most likely to use for a nuclear bomb, this 
material is much harder to detect, and our systems we have are 
not really sensitive enough to detect well-shielded plutonium. 
So it is a different order of problem we are talking about 
here.
    Mr. Lungren. What would you, Mr. Schweitzer, describe as 
the effects of a dirty bomb? The reason I ask that is because I 
think in your presentation, in the written presentation, you 
talk about the uncertainty, the lack of knowledge, the reaction 
from the people in the presence of a dirty bomb. Frankly, it 
reminds me a lot of the things that we are confronted with the 
two large natural disasters--well, the natural disaster we had 
10 days ago and the one we might have right upon us now. How 
would you describe the consequence of a dirty bomb of some 
reasonable size?
    Mr. Schweitzer. I would suspect that there would not be 
many more people killed that weren't killed by the explosion 
itself. So I wouldn't expect many deaths from radiation either 
in the short or long term. But I would expect, he did, 
depending on a lot of things, large-scale contamination, and 
that would, I think, immediately result in cordoning off multi-
block areas of cities and people would want to get away from 
it, people don't know what radiation is, they just know it is 
bad, get out of here.
    Mr. Lungren. How long would we have to cordon off the 
areas?
    Mr. Schweitzer. It could be a week, a month or longer. How 
long did the buildings in the Congress have to stay off limits 
because of the anthrax attacks? If the material gets embedded 
into the buildings and continues to radiate, it could be a long 
time. But the initial uncertainty would certainly result in a 
lot of chaos.
    In terms of the analogy with the response to the hurricane, 
et cetera, I think you have to keep in mind that these become 
crime zones, and you could imagine a crime zone overlaid on top 
of the hurricane, that is a real problem. People don't want to 
go back in there if it is a crime zone. People may not be 
allowed to go back in.
    I think the analogy doesn't go too far. Also you are 
worried about a second one. You have had one of these bombs go 
off, people are worried, will there be a second one. Plus you 
have the uncertainty of, can you go back in, and then you have 
the people investigating it.
    Mr. Lungren. If you had a dirty bomb exploded in the midst 
of the Super Bowl, what would be the impact on the people that 
were there? What would be the loss of life, what would be the--
    Mr. Schweitzer. I think the contamination problem would not 
be great because you are pretty well confined. But I think the 
deaths would be primarily from the explosion. How many people 
would die from the explosion? It depends on the size, how much 
TNT you have, how much dynamite you have. So I don't think the 
death toll is really the--it is always a concern, but it is not 
the concern like it is on a fissile bomb where you kill 
hundreds of thousands of people.
    Mr. Linder. I thank all of you, Dr. Lee, Dr. Juzaitis, Mr. 
Schweitzer. You have been very helpful. We are grateful.
    This meeting is adjourned.
    [Whereupon, at 3:34 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
